      Office of Inspector General
             Audit Report



            WATER



North Carolina NPDES Enforcement
    and EPA Region 4 Oversight




      REPORT NUMBER 2000-P-00025

           September 28, 2000
Inspector General Division(s)   Southern Audit Division, RTP Regional Audit
 Conducting the Audit           Office
                                Research Triangle Park, NC
Region covered                  Region 4
Program Office(s) Involved      Office of Water
                                Office of Enforcement and Compliance Assurance
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 OFFICE OF INSPECTOR GENERAL
                                   SOUTHERN AUDIT DIVISION     Regional Audit Office
                                   ATLANTA FEDERAL CENTER      Mail Drop 53
                                   100 ALABAMA STREET, S.W.    Research Triangle Park, NC 27711
                                  ATLANTA, GEORGIA 30303-3104


September 28, 2000

MEMORANDUM

SUBJECT:       North Carolina’s NPDES Enforcement and Region 4 Oversight
               Final Audit Report No. 2000-P-00025

FROM:          John M. Bishop /s/
               Audit Manager, RTP Regional Office
               Southern Audit Division

TO:            John H. Hankinson, Jr.
               Regional Administrator
               EPA Region 4


        Attached is our final report on our audit entitled “North Carolina’s NPDES Enforcement
and EPA Region 4 Oversight.” The primary objectives of the audit were to determine whether: (1)
EPA Region 4 had provided sufficient oversight to ensure that North Carolina operated an
adequate NPDES compliance monitoring and enforcement program, and (2) North Carolina had
taken timely and appropriate enforcement action against major and minor facilities in
noncompliance with their permit conditions and had developed a permit for concentrated animal
feeding operations that provided all necessary Clean Water Act statutory and NPDES regulatory
provisions and was subject to EPA review and enforcement.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings described in this audit report are not binding upon EPA in any enforcement proceeding
brought by EPA or the Department of Justice.

        In accordance with EPA Order 2750, the primary action official is required to provide us
with a written response to the audit report within 90 days of the final audit report date. Since this
report deals primarily with North Carolina’s NPDES enforcement and Region 4's oversight of that
enforcement, we are requesting that you, as the primary action official, take the lead in
coordinating and providing us a written response to this report. For corrective actions planned but
not completed by the response date, reference to specific milestone dates will assist us in deciding
whether or not to close this report in our audit tracking system.
       Should you or your staff have any questions about the report, please contact me
at 919-541-1028.

Attachment

cc: See Report Distribution List
                               North Carolina NPDES Enforcement and EPA Region 4 Oversight




                            EXECUTIVE SUMMARY


PURPOSE AND                    This audit was conducted to evaluate EPA Region 4's
OBJECTIVES                     oversight of North Carolina’s National Pollutant Discharge
                               Elimination System (NPDES) enforcement program and the
                               effectiveness of the State’s operation of that program. Our
                               primary audit objectives were to determine whether:

                               •      EPA Region 4 had provided sufficient oversight to
                                      ensure that North Carolina operated an adequate
                                      compliance monitoring and enforcement program,
                                      and, whether North Carolina had:

                               •      taken timely and appropriate enforcement action
                                      against major and minor facilities in noncompliance
                                      with their permit conditions,

                               •      developed a permit for concentrated animal feeding
                                      operations (CAFOs) that provided all necessary
                                      Clean Water Act (CWA) statutory and NPDES
                                      regulatory provisions and was subject to U.S.
                                      Environmental Protection Agency (EPA) review and
                                      enforcement.

RESULTS IN BRIEF

Region 4 Needs to Expand       Region 4 needs to expand and strengthen its oversight of
and Improve Its Oversight      North Carolina’s NPDES program. The need for these
                               actions is emphasized by the fact that Region 4 did not have
                               reporting procedures in place which would inform them
                               about whole effluent toxicity (WET) violations or
                               continuing problems with minor permitted facilities in the
                               State. In addition, the Region did not generally overfile, or
                               take comparable actions, to supplement State efforts to
                               maintain water quality and improve the environment when
                               violations continued and the State had not negotiated
                               Special Orders by Consent (SOCs) with permittees to
                               achieve compliance. Since the Region was not aware of the


                                                                     Report No. 2000-P-00025
                         North Carolina NPDES Enforcement and EPA Region 4 Oversight

                         WET violations we reviewed, or the continuing problems
                         with the minor facilities we reviewed, the Region could not
                         adequately oversee the State’s efforts to improve water
                         quality.

North Carolina Has       The State implemented a new enforcement policy on July 1,
Strenghtened Its         1998 which appeared to have caused more facilities to come
Enforcement Program      into compliance with their NPDES permits. North Carolina
                         Department of Environment and Natural Resources’
                         (NCDENR) reports indicated that the overall compliance
                         rate for NPDES facilities rose from approximately 80
                         percent during the eight-year period before 1998 to more
                         than 87 percent during the first half of 2000. Also, the
                         State established a public website which provided extensive,
                         useful information about its NPDES enforcement actions to
                         the public.

Additional Improvement   However, North Carolina needed to improve its
Needed in State          enforcement efforts to ensure compliance with NPDES
Enforcement Efforts      permit requirements. Further improvement was needed in
                         identifying daily and weekly violations of NPDES permit
                         limits, obtaining agreements to achieve compliance, and
                         incorporating economic benefit analysis into enforcement
                         actions. If there was no monthly permit violation, North
                         Carolina did not take timely enforcement actions for
                         significant daily/weekly violations until there was a
                         compliance inspection. In addition, North Carolina did not
                         adequately identify similar violations by minor permittees
                         within 30 days after these violations occurred.
                         Improvements in the State’s enforcement efforts were also
                         needed because agreements with permit violators to obtain
                         compliance were either not obtained or not obtained timely.
                         In some cases, State officials did not obtain SOCs with
                         permit violators because they believed permittees had
                         already taken sufficient actions to achieve compliance. In
                         other cases, SOCs were not obtained timely because State
                         officials believed State/EPA Memorandum of Agreement
                         (MOA)-specified time frames were unrealistic and,
                         therefore, did not attempt to meet those time frames.
                         Further, economic benefit gained by violators resulting from
                         noncompliance was not adequately considered when
                         penalties were assessed because State officials believed


                                    ii                         Report No. 2000-P-00025
                            North Carolina NPDES Enforcement and EPA Region 4 Oversight

                            other enforcement actions were sufficient to bring NPDES
                            permit violators into compliance.

State Needs to Develop a    North Carolina did not routinely inspect stormwater
Stormwater Compliance       industrial sites, monitor inspections of non-construction
Program                     stormwater sites, or review stormwater self-monitoring
                            reports. North Carolina officials indicated they did not have
                            the resources to develop a stormwater compliance strategy
                            and program even though EPA studies, as well as State
                            water quality data, have shown pollution resulting from
                            stormwater runoff was a significant water quality concern.
                            Moreover, implementation of Phase II of the stormwater
                            program will significantly increase the number of
                            stormwater sites requiring NPDES permits.

State Should Phase in Use   The test methods used by North Carolina’s NPDES
of More Sensitive Test      facilities were not always sensitive enough to determine
Methods                     compliance with permit limits for certain pollutants.
                            Improved test methods have recently been developed which
                            were more sensitive than the methods used by NPDES
                            permittees in the State. The usefulness of North Carolina
                            permit data was significantly diminished because the tests
                            used by NPDES facilities were not capable of determining
                            whether the permittee was in compliance with these limits.
                            In addition, the accuracy of water quality analysis and
                            reports can be affected if the most sensitive and accurate
                            discharge data is not available.

State Permits for Animal    North Carolina did not issue NPDES permits to facilities
Feeding Operations Do Not   that were subject to applicable federal CAFO regulations.
Adequately Address Four     According to EPA Region 4 officials, the State resisted
Key Provisions of NPDES     EPA’s efforts to induce the State to issue NPDES CAFO
Permits                     permits. We found that North Carolina’s animal feeding
                            operations (AFO) permits did not adequately address the
                            following key provisions when compared to NPDES CAFO
                            permit requirements; Federal enforceability, adequate third
                            party lawsuit coverage, sufficient public notice, and EPA
                            oversight. Without these key NPDES provisions in State
                            permits, EPA Region 4's enforcement ability was hindered
                            and the public was not adequately informed. Manure and
                            waste water from AFOs have the potential to contribute
                            pollutants such as nitrate and phosphorus, organic matter,


                                       iii                        Report No. 2000-P-00025
                  North Carolina NPDES Enforcement and EPA Region 4 Oversight

                  sediments, pathogens, heavy metals, hormones, and
                  ammonia to the environment. Due to the potential for
                  major environmental impacts caused by discharges from
                  AFOs, it is important that the State’s permits and permit
                  program include all applicable NPDES provisions.

RECOMMENDATIONS   We recommend that the Regional Administrator:

                  •      Develop procedures to ensure that failures to meet
                         WET limits in State NPDES permits are recorded
                         on quarterly non compliance reports (QNCRs), or
                         are otherwise recorded so that this data may be used
                         to monitor progress made in resolving such
                         violations.

                  •      Develop procedures to obtain the information
                         needed to exercise adequate oversight over problem
                         minor facilities in North Carolina.

                  •      Review the major problem facilities which are
                         identified in North Carolina’s QNCRs and the minor
                         problem facilities which are identified in the State’s
                         summary records, to evaluate the need to overfile or
                         take comparable enforcement action when
                         necessary, and require that such overall evaluations
                         be made periodically, at least annually, for all
                         problem permittees.

                  We also recommend that EPA’s Regional Administrator
                  ensure that North Carolina:

                  •      Detect exceedances of daily and weekly NPDES
                         permit limits within 30 days after receipt of the
                         discharge monitoring reports (DMR). In the
                         absence of Compliance Monitoring System (CMS)
                         software enhancements, or other better means of
                         identifying such exceedances, we recommend that
                         the Regional Administrator encourage the State to
                         require that DMRs be manually reviewed for daily
                         and weekly exceedances of NPDES element limits in
                         instances where NPDES permits do not contain
                         monthly permit limits.


                             iv                         Report No. 2000-P-00025
               North Carolina NPDES Enforcement and EPA Region 4 Oversight


               •      Use SOCs, as appropriate, when permit violations
                      persist and State waters are being polluted and,
                      when delays occur in reaching such agreements,
                      account for those delays.

               •      Adequately incorporate consideration of economic
                      benefit for noncompliance by permit violators in the
                      State’s penalty assessments against repeat offenders,
                      and ensure that training on the use of the BEN
                      model (a system for estimating economic benefit) is
                      provided to State officials, as necessary.

               •      Evaluate its current NPDES compliance activities
                      and resource allocation to determine whether
                      resources could be obtained to implement an
                      adequate stormwater compliance program.

               •      Develop plans to phase in the use of test methods
                      with the lowest reporting limits for analyzing
                      wastewater effluent concentrations of total residual
                      chlorine and mercury.

               •      Issue NPDES permits to all facilities that meet the
                      Federal definition of a CAFO. If no such agreement
                      can be reached, we recommend that the Regional
                      Administrator consider withholding an appropriate
                      portion of Clean Water Act (CWA) Section 106
                      Water Grant funding relating to State permitting
                      activities.

EPA REGION 4   EPA Region 4 generally agreed with our draft report
COMMENTS       findings and conclusions and agreed to work with North
               Carolina to resolve many of our recommendations. Region
               4 officials agreed to work with North Carolina to
               collaboratively construct an action plan to overcome and/or
               clarify issues in North Carolina’s implementation of the
               CWA program as well as EPA’s role in oversight of the
               delegated program.

               However, Region 4 officials found our recommendations
               concerning increased EPA oversight of minor facilities


                          v                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 troublesome inasmuch as their ability to oversee the State’s
                 regulation of minor facilities is limited by available resources
                 as well as CWA regulations and policy. Nevertheless,
                 Region 4 officials indicated they would address minors as
                 resources permitted through a variety of tools, such as
                 sampling during file reviews and requests to the State for
                 pertinent information on violations and enforcement actions.

STATE COMMENTS   The NCDENR’s Division of Water Quality (DWQ) had
                 concerns with some of our recommendations. However,
                 they indicated that they would work with EPA Region 4
                 staff to develop a plan to address the issues we raised in our
                 report. North Carolina indicated their concern that our
                 report did not recognize their accomplishments in their
                 water quality program. The State indicated that our report
                 left them with the impression that they must address every
                 violation with a formal enforcement action. They believed
                 that a manual review of DMRs to pick up daily/weekly
                 violations would be a misuse of their resources. Further,
                 the State indicated that they disagree that they should be
                 using SOC’s more often and in a timelier manner. North
                 Carolina believes that factoring economic benefit of non-
                 compliance more thoroughly into their assessments would
                 detract from the timeliness of their assessments. The State
                 indicated they plan to work with EPA to develop a plan for
                 implementation or phase in of new test methods. Also, the
                 State indicated that resource limitations had prevented them
                 from more fully implementing stormwater monitoring and
                 compliance activities. Finally, the State disagreed that they
                 had resisted EPA Region 4's efforts to induce them to issue
                 NPDES permits.

OIG EVALUATION   We agree that EPA Region 4’s main focus should continue
                 to be on monitoring the State’s oversight of major facilities.
                 However, we believe that the Region should use State
                 summary records and any other available information to
                 monitor the State’s oversight of minor facilities. We
                 believe that the anticipated joint action plan proposed by
                 Region 4 and the State could significantly help in reaching
                 this goal. We have retained our recommendations in this
                 report pending our determination that the anticipated



                            vi                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

EPA/State action plan satisfactorily resolves those
recommendations.

In response to the State’s concerns that we did not
recognize their water quality program accomplishments, we
have added that information to our final report where we
were able to identify and evaluate specific accomplishments
related to State program activities covered in our scope of
work. The MOA did not require a formal enforcement
action after every violation. In accordance with their MOA,
we believe every violation that was reflected in a DMR
should have been identified by a State representative. We
did not suggest that the State must address every violation
with a formal enforcement action. The State is required by
their MOA with EPA Region 4 to factor in an evaluation of
the economic benefit of non-compliance in their penalty
assessments. Such an evaluation could be done on a case by
case basis, concentrating on more severe and repeated
violations, as provided for in the MOA.

We continue to disagree with the State’s assertion that their
enforcement policy fulfills the commitment they made in
their MOA to take formal enforcement actions. The State’s
enforcement actions, other than negotiating SOCs, did not
obtain the permittees’ commitment to take specific,
tangible actions to achieve compliance by a specific time in
the future. Based on our discussions with EPA Region 4
and State officials, we revised the wording of the draft
report’s recommendation to clarify that we are not
recommending that the State reallocate resources to the
stormwater program. We are recommending that EPA and
the State conduct an evaluation to determine whether it
makes sense to reallocate existing resources to the
stormwater program.

According to several key EPA Region 4 officials, North
Carolina has resisted efforts to issue NPDES CAFO
permits. We recognize that EPA Region 4 has not
responded formally to North Carolina’s request for
functional equivalency dated Sept. 29, 1999. However,
EPA Region 4 has informally informed North Carolina that



          vii                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

EPA would not grant North Carolina functional
equivalency. In addition, North Carolina’s original request
for functional equivalency was based on North Carolina’s
current program which did not incorporate all of the
necessary NPDES requirements. We recognize that the
North Carolina permit program may be more stringent in
areas outside of the two cited in our report. However, this
does not relieve North Carolina from the requirement of
issuing permits that include all applicable regulatory
provisions.

EPA Region 4's and North Carolina’s responses have been
included as appendixes to this report.




          viii                        Report No. 2000-P-00025
                                                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                                             TABLE OF CONTENTS

                                                                                                                      Page
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xiii

CHAPTERS

1         INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
               Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
               Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       2
               Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              7
               Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           8

2         EPA REGION 4 NEEDS TO EXPAND AND STRENGTHEN ITS
          OVERSIGHT OF NORTH CAROLINA’S NPDES PROGRAM . . . . . . . . . . . . . . . . . . 9
               Region 4 Was Not Aware of Continuing Noncompliance
                With WET Limits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
               Region 4 Generally Did Not Monitor The Status of Minor
                Facilities That Polluted North Carolina Waters . . . . . . . . . . . . . . . . . . . . . . . . 12
               Region 4 Generally Did Not Take Unilateral Action Against
                Facilities That Remained in Continuous Noncompliance With
                Their NPDES Permits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
               EPA Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

3         ADDITIONAL IMPROVEMENT IS NEEDED BY NORTH CAROLINA
          TO ENSURE THAT ENFORCEMENT ACTIONS ARE TIMELY AND
          APPROPRIATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        19
               MOA Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              19
               Enforcement Actions Are Not Always Taken Promptly for
                Violations of Daily Or Weekly Permit Limits . . . . . . . . . . . . . . . . . . . . . . . . .                          22
               Improvement Is Needed in Forging Agreements Which Bring
                About Compliance With NPDES Permit Limits . . . . . . . . . . . . . . . . . . . . . . .                                26
               North Carolina Did Not Adequately Consider Economic Benefit of
                Noncompliance When Assessing Civil Penalties . . . . . . . . . . . . . . . . . . . . . . .                             31
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      34


                                                                  ix                                   Report No. 2000-P-00025
                                                  North Carolina NPDES Enforcement and EPA Region 4 Oversight

                   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
                   State Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

4        NORTH CAROLINA NEEDS TO IMPROVE ITS STORMWATER
         COMPLIANCE MONITORING AND ENFORCEMENT PROGRAM . . . . . . . . . . . .                                                    39
             NPDES Stormwater Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    39
             Compliance With Stormwater Requirements Not Routinely Monitored . . . . . . .                                        42
             Minimal Resources Were Devoted to Stormwater Compliance . . . . . . . . . . . . .                                    43
             Stormwater Contributes Significantly to Stream Impairment . . . . . . . . . . . . . . .                              43
             Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   44
             Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         45
             EPA and State Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . .                          45

5        TEST METHODS USED BY NPDES FACILITIES WERE NOT
         ALWAYS SENSITIVE ENOUGH TO DETERMINE COMPLIANCE
         WITH PERMIT LIMITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
              North Carolina NPDES Testing Requirements . . . . . . . . . . . . . . . . . . . . . . . . . 47
               Some Minor Facilities Did Not Use the Most Sensitive Test
               Available for Total Residual Chlorine . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
              New Test Method Should Provide Needed Sensitivity to Evaluate
               Compliance With Mercury Limits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
              State and EPA Unable to Evaluate Permit Compliance and
               Potential Impact of Discharges on the Environment . . . . . . . . . . . . . . . . . . . . 54
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
              EPA and State Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . 56

6        NORTH CAROLINA’S ANIMAL FEEDING OPERATIONS
         SHOULD BE PERMITTED UNDER NPDES REQUIREMENTS . . . . . . . . . . . . . . .                                               59
             NPDES/CAFO Regulatory Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         60
             State AFO Permitting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         61
             Potential Environmental Impact of CAFO Discharges . . . . . . . . . . . . . . . . . . .                              62
             North Carolina’s AFO Program Did Not Adequately Address
              Four Key NPDES Provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 63
             Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   65
             Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         66
             EPA and State Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . .                          66

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

EXHIBITS
1    SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77


                                                                x                                    Report No. 2000-P-00025
                                                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

2       SCHEDULE OF TIME REQUIRED TO OBTAIN SOCs . . . . . . . . . . . . . . . . . . . . . . 79
3       DISCREPANCIES BETWEEN MONITORING REPORTS AND PCS REPORTS . . 81
4       ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83


APPENDICES
1    EPA REGION 4 RESPONSE TO THE DRAFT AUDIT REPORT . . . . . . . . . . . . . . . 85
2    NORTH CAROLINA DENR’S RESPONSE TO THE DRAFT AUDIT REPORT . . . 87
3    REPORT DISTRIBUTION LIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 99




                                                               xi                                  Report No. 2000-P-00025
      North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 xii                       Report No. 2000-P-00025
                              North Carolina NPDES Enforcement and EPA Region 4 Oversight




                             ABBREVIATIONS


AFO      Animal Feeding Operation
BEN      Economic Benefit of Noncompliance
BMP      Best Management Practices
BOD      Biochemical Oxygen Demand
CAFO     Concentrated Animal Feeding Operation
CFR      Code of Federal Regulations
CMS      Compliance Monitoring System
CWA      Clean Water Act
DMR      Discharge Monitoring Report
DWQ      NCDENR Division of Water Quality
EMS      Enforcement Management System
EPA      U. S. Environmental Protection Agency
GPRA     Government Performance Results Act
MOA      Memorandum of Agreement
MS4      Municipal Separate Storm Sewer Systems
NCDENR   North Carolina Department of Environment and Natural Resources
NPDES    National Pollutant Discharge Elimination System
NOV      Notice of Violation
OECA     Office of Enforcement and Compliance Assurance
OIG      Office of Inspector General, EPA
PCS      Permit Compliance System
QNCR     Quarterly Non Compliance Report
RTP      Research Triangle Park
RNC      Reportable Non Compliance
SNC      Significant Non-Compliance
SOC      Special Order by Consent
SOWC     Special Order Without Consent
S&W      Soil & Water Conservation
TMDL     Total Maximum Daily Load
ug/l     Micrograms per liter
WET      Whole Effluent Toxicity




                                       xiii                        Report No. 2000-P-00025
      North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                xiv                        Report No. 2000-P-00025
              North Carolina NPDES Enforcement and EPA Region 4 Oversight



             CHAPTER 1
             INTRODUCTION


PURPOSE      This audit is one of several regional and state National
             Pollutant Discharge Elimination System (NPDES)
             enforcement related audits conducted by the Office of
             Inspector General (OIG) to evaluate the performance of
             state enforcement programs.

             Our objectives were to determine whether:

             •       EPA Region 4 has provided sufficient oversight to
                     ensure that states operate an adequate compliance
                     monitoring and enforcement program, and whether
                     North Carolina had:

             •       taken timely and appropriate action against major
                     NPDES facilities in significant noncompliance with
                     their permit conditions,

             •       taken timely and appropriate action against minor
                     NPDES facilities that violated their permit
                     conditions, adequately monitored permittee
                     compliance to detect and resolve instances of
                     noncompliance,

             •       developed a permit for concentrated animal feeding
                     operations (CAFOs) that provided all required Clean
                     Water Act (CWA) statutory and NPDES regulatory
                     provisions and was subject to EPA review and
                     enforcement, and

             •       adequately maintained State data in EPA’s national
                     database for tracking NPDES permit compliance.


BACKGROUND   The Federal Water Pollution Control Act of 1972 initiated a
             broad Federal effort to restore and maintain the Nation’s


                        1                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

waterways, including the creation of a permit program to
regulate and reduce point source pollution. In 1977,
Congress reauthorized and renamed the 1972 Act as the
CWA. Congress amended the CWA in 1987. The CWA
established EPA’s responsibility for the implementation of
the NPDES program.

The CWA required that all point sources discharging
pollutants into waters of the United States obtain an NPDES
permit. 40 Code of Federal Regulations (CFR) Part 122.2
defined point sources as “any discernable, confined, and
discrete conveyance, including but not limited to, any pipe,
ditch, channel, tunnel, conduit, well, discrete fissure,
container, rolling stock, concentrated animal feeding
operation, landfill leachate collection system, vessel or other
floating craft from which pollutants are or may be
discharged.” NPDES permits were issued as general or
individual NPDES permits. General permits authorized a
category of discharges within a geographical area and
applied a set of generic requirements to all facilities covered
under the general permit. Individual permits were issued to
a specific facility and the permit conditions were specific to
that facility.

Several categories of discharges were covered under the
NPDES program. More common categories include
municipal waste water and industrial process waste water.
Stormwater run-off discharges associated with industrial
activity and large and medium municipal separate
stormwater systems (MS4) were also considered point
sources under the CWA and were required to have NPDES
permits. Under Phase I of EPA’s stormwater regulations,
facilities required to obtain NPDES permits included
construction sites of five acres or more, certain industrial
sites (e.g., landfills, junkyards) and MS4 facilities serving
populations of more than 100,000. Certain animal
operations, primarily those housing over 1,000 animal units
and having a discharge into the waters of the United States,
were considered CAFOs and subject to NPDES permit
requirements.




           2                           Report No. 2000-P-00025
                  North Carolina NPDES Enforcement and EPA Region 4 Oversight

                  In EPA Region 4, all NPDES permitting and enforcement
                  authority had been delegated to appropriate state agencies,
                  with the exception of Florida Stormwater and Sludge
                  regulation, in all states. As required by Federal regulation,
                  each state had entered into a Memorandum of Agreement
                  (MOA) with Region 4 which outlined the conditions of the
                  delegation of the program to the state. EPA Region 4
                  provided partial funding for state NPDES programs through
                  the CWA Section 106 FY 1999 Grant Program to five states
                  in Region 4 totaling approximately $2.8 million (Georgia,
                  Mississippi and South Carolina funding were not included in
                  this total because such funding was incorporated in
                  Performance Partnership Grants to these states). Although
                  states had the opportunity to combine their various program
                  specific grants into performance partnership grants in FY
                  2000, all states in Region 4, except Georgia, received their
                  FY 2000 funding for their NPDES programs through a
                  separate Section 106 grant.

NPDES Reporting   NPDES facilities were generally classified as major or
                  nonmajor (i.e., minor) and as municipal or non-municipal.
                  Federal regulations required different levels of reporting
                  depending upon the classification of the NPDES facility.
                  NPDES implementing regulations allowed EPA’s Regional
                  Administrators and state officials to define “major” and
                  “minor” facilities. EPA’s primary consideration that
                  differentiated a major municipal facility from a minor
                  municipal facility was a flow rate of one million gallons of
                  water a day from a facility that serviced a population of
                  10,000 or more. EPA’s complete definition of a major
                  permittee was: 1) any municipal permittee having a design
                  flow of one million gallons per day or greater servicing a
                  population of 10,000 or greater, or having a significant
                  impact on water quality; 2) any non-municipal permittee
                  having an industrial rating of 80 or higher (signifying a
                  relatively higher risk to the environment); 3) any permitted
                  federal facility meeting the criteria for a major municipal or
                  non-municipal as appropriate; and 4) any discretionary major
                  permittee allowed within the limits established by EPA
                  Headquarters.




                             3                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

The types of pollutants or parameters limited by an NPDES
permit generally included oxygen demand, solids, nutrients,
minerals, and metals. Some facilities were also required to
monitor for whole effluent toxicity (WET). WET testing
consisted of tests to determine if the effluent is toxic to
certain organisms. If the facility’s effluent was determined
to be toxic beyond established limits, additional testing and
analysis may have been required to determine the pollutants
which caused the toxicity and the source of these toxic
pollutants.

States and EPA primarily monitored an NPDES facility’s
compliance with its permit conditions through discharge
monitoring reports (DMR) submitted by the facility.
Facilities were required to regularly sample and analyze their
effluent (discharge) and record the results of this testing on
DMRs which were submitted to the state. The results
reported on the DMR were compared to the limits
established in the facility’s permit to determine compliance.
As part of Region 4's delegation of the program, states were
required to have a quality assurance program in place to
assure the quality of the laboratories performing analyses of
the effluent samples.

40 CFR Part 123.45 required that EPA prepare, or in the
case of delegated programs, the states prepare and submit to
EPA, Quarterly Non Compliance Reports (QNCRs) for
major NPDES facilities. This report provided information
on facilities that were in non-compliance with their permit
conditions, the nature of the violation, and the type of
enforcement action taken, if any, in response to those
violations.

40 CFR Part 123.45 also required states to report on their
compliance and enforcement activities related to nonmajor
(minor) facilities. The reporting requirement for minor
facilities was not as frequent as the requirement for major
facilities. The state was required to submit an annual report
providing the number of minor permittees reviewed, the
number of minor permittees in non-compliance, the number
of enforcement actions taken, and the number of permit
modifications extending compliance deadlines.


           4                          Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     EPA established the Permit Compliance System (PCS) as the
                     national database for NPDES reporting and to provide an
                     overall inventory for the NPDES program. The data
                     gathered in PCS was to be used to respond to Congress and
                     the Public; encourage a proper EPA/State oversight role by
                     identifying major permit violators; and serve as an
                     operational and management tool for tracking permit
                     issuance, compliance, and enforcement actions. Beginning
                     in Fiscal Year 1990, PCS has been used to generate QNCRs.

                     Although state delegated programs often used their own
                     data bases for tracking permit compliance and enforcement,
                     the states were required by their MOA with EPA and CWA
                     Section 106 grant workplans to enter their permit,
                     compliance and enforcement data into PCS.

Regional Oversight   A key component of the EPA Region 4’s oversight of state
                     programs was to review state QNCRs and identify major
                     permittees that were considered in significant non-
                     compliance (SNC) with their permit conditions. SNC was a
                     concept developed by EPA to identify and target those
                     violations that were of a sufficient magnitude and/or
                     duration to be considered a high enforcement response
                     priority. Generally, a facility was considered to be in SNC if
                     it had exceeded its monthly limit by 40% for any pollutant
                     categorized as Group I (refer to 40 CFR Part 123.45
                     Appendix A) or by 20% for any pollutant categorized as
                     Group II (refer to 40 CFR Part 123.45 Appendix A) at a
                     given discharge point for any two or more months during the
                     six-month review period. Violations of any monthly limit at
                     a given discharge point by any amount for four out of six
                     months was also considered SNC.

                     If a facility was identified as SNC for two straight reporting
                     quarters and the state had not taken a formal enforcement
                     action, the Region placed the facility on the Active
                     Exceptions List. The Region provided the Active
                     Exceptions List to the state. Failure by a state to
                     adequately address the sites on the Active Exceptions List
                     could result in an enforcement action by EPA against the
                     facility. Although there might have been some legitimate



                                5                           Report No. 2000-P-00025
                         North Carolina NPDES Enforcement and EPA Region 4 Oversight

                         justification for a facility to appear on the Active Exceptions
                         List, EPA generally considered the Active Exceptions List to
                         signify those cases where the state had failed to respond to
                         the violations in a timely and appropriate manner.

North Carolina’s NPDES   The North Carolina Department of Environment and
Program                  Natural Resources’s (NCDENR) Department of Water
                         Quality (DWQ) was responsible for implementing the
                         NPDES permit program in the State. DWQ comprised five
                         sections, with the Water Quality Section having
                         responsibility for operating the NPDES program. The
                         Compliance and Enforcement Units within the Water
                         Quality Section’s Point Source and Non-Discharge
                         Branches oversaw compliance and enforcement activities
                         for NPDES point sources and animal feeding operations,
                         respectively. The Aquatic Toxicology Unit monitored
                         compliance with WET limits. The seven State regional
                         offices were also responsible for compliance monitoring
                         and enforcement activities. These activities included
                         conducting on-site inspections of NPDES facilities, issuing
                         notices of violation (NOV), and assessing civil penalties.
                         Records provided by North Carolina showed the following
                         number of NPDES permits by category as of April 2000.

                                                                  Number
                            Category                              of Permits
                            Major Municipal                            145
                            Major Non-municipal                        100
                            Minor Municipal                            164
                            Minor Non-municipal                       1167
                            Industrial Stormwater                     3552
                            Construction Stormwater                   2800
                            Municipal Separate Storm Sewer                6
                            Total                                     7934




                                    6                           Report No. 2000-P-00025
              North Carolina NPDES Enforcement and EPA Region 4 Oversight

              PCS contains enforcement and monitoring data for major
              permittees. PCS may contain descriptive information
              about minor and stormwater permittees, however, it does
              not contain enforcement or monitoring data about such
              permittees. As described earlier, EPA policy identified
              certain NPDES violators as SNC and expected formal
              enforcement actions within a certain time period to address
              these violations. This policy defined a formal enforcement
              action to include, among other things, actions to achieve
              compliance along with a timetable for achieving such
              compliance. However, North Carolina’s approach to
              addressing violations of NPDES permit limits, adopted in
              July 1998, did not implement EPA’s definition of timeliness
              and appropriateness for SNC violations. Under North
              Carolina’s July 1998 enforcement procedures, State
              regional supervisors were delegated the authority to issue
              NOVs and assess specific penalty amounts, when
              appropriate, for exceedances of some NPDES permit
              items. When monthly penalties failed to bring a facility into
              compliance, the State considered other enforcement
              options, such as encouraging permittees to negotiate
              Special Orders by Consent (SOCs) to address the non-
              compliance. The civil penalties assessed by North Carolina
              under their enforcement policy did not meet EPA’s
              definition of formal enforcement actions, largely because
              they did not include specific actions or time schedules to
              achieve compliance. However, North Carolina’s SOCs did
              meet EPA’s definition of formal enforcement actions.
              Chapter 3 discusses North Carolina’s use of SOCs and
              penalties in greater detail.


SCOPE AND     We performed our audit in accordance with the
METHODOLOGY   Government Auditing Standards (1994 Revision through
              July 1999 Amendment 2) issued by the Comptroller
              General of the United States as they apply to program
              audits. Our review included tests of the program records
              and other auditing procedures we considered necessary.
              We conducted our fieldwork from January 2000 through
              June 2000. We performed our fieldwork at EPA Region 4
              Offices in Atlanta, Georgia; at the NCDENR Central Office
              in Raleigh, North Carolina; and at NCDENR Regional


                         7                           Report No. 2000-P-00025
              North Carolina NPDES Enforcement and EPA Region 4 Oversight

              Offices in Raleigh, Asheville, Fayetteville, Winston-Salem,
              Raleigh, Washington, and Wilmington. See Exhibit 1 for
              methodology details.

PRIOR AUDIT   No recent OIG or U.S. General Accounting Office audit
COVERAGE      reports have been issued related to Region 4's oversight of
              state delegated NPDES enforcement programs or of North
              Carolina’s enforcement of its NPDES program. In 1989,
              the OIG issued a report on EPA Region 4's NPDES
              enforcement program. The OIG issued a report on Region
              10's NPDES program in March 1998. The Region 10
              Audit, which reviewed non-delegated programs operated by
              the Region, found that Region 10’s compliance monitoring
              activities could be improved and that the Region often did
              not take formal enforcement actions against significant
              violators. Finally, the OIG issued a Special Review Report
              in 1997 which detailed the results of a review of North
              Carolina’s animal feeding operations permit program. This
              review concluded that certain provisions of North
              Carolina’s program were more stringent than related
              Federal NPDES program provisions for CAFOs, and
              recommended that EPA take several actions to strengthen
              the Federal CAFO program.




                         8                          Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight




                    CHAPTER 2
EPA REGION 4 NEEDS TO EXPAND AND STRENGTHEN ITS
OVERSIGHT OF NORTH CAROLINA’S NPDES PROGRAM



                     EPA Region 4 officials did not have reporting procedures in
                     place which would have informed them about continuing
                     problems with WET violations by major and minor
                     permittees in North Carolina. Further, Region 4 officials
                     were not exercising oversight over permitted facilities in
                     North Carolina classified as minor facilities because
                     guidance provided by EPA’s Office of Enforcement and
                     Compliance Assurance (OECA) encouraged EPA’s regional
                     offices to focus their enforcement efforts on major facilities.
                     In addition, Region 4 generally did not overfile, issue
                     administrative orders, or take other comparable
                     enforcement actions against facilities in the State with
                     continuing NPDES permit violations during the period of
                     our review. Regional officials indicated they did not take
                     these actions because their resources were committed to
                     other initiatives. Since the Region was not aware of the
                     WET violations we reviewed, or the continuing problems at
                     the minor facilities we reviewed, the Region could not work
                     with the State to improve water quality in those important
                     areas. If the Region had been aware of these problems and
                     had taken action, the exceedances of NPDES permit limits
                     that have continued might have been reduced or eliminated
                     with resultant improvement in water quality.

REGION 4 WAS NOT     Region 4's procedures for overseeing North Carolina’s
AWARE OF             WET program did not ensure that the Region was aware of
CONTINUING           continuing permittee violations of WET limitations. As a
NONCOMPLIANCE        result, the Region did not exercise adequate oversight over
WITH WET LIMITS      North Carolina’s program to ensure compliance with
                     NPDES WET permit requirements.




                                9                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

The CWA allows EPA to delegate implementation of the
NPDES program to a qualifying state while retaining
overall responsibility for the program. For example,
Section 1319 of the US Code: Title 13, which is part of the
codification of the CWA, states that when “. . . The
Administrator finds that any person is in violation of any
condition or limitation . . . in a permit issued by a State
under an approved permit program . . . he shall proceed
under his authority . . . to notify the State . . . [and if] the
State has not commenced appropriate enforcement action,
the Administrator shall . . . [take enforcement action].”

As of April 11, 2000, the State’s WET database showed
that four facilities had been put on SOCs to address
continuing WET violations. Further, the Aquatic
Toxicology Unit’s monthly report dated March 15, 2000
showed that four facilities (not the same four facilities
discussed in the prior sentence) had incurred six or more
violations of their WET limits in the year ending January
31, 2000. Region 4 officials were not aware that [NC City
A] Wastewater Treatment Plant frequently failed to pass
the WET limits in its NPDES permit for over a decade.
The Plant failed eight of 10 tests in 1998, nine of 10 tests
in 1999, and the last nine tests it took through March 2000,
the last month shown in the summary record we reviewed.
The Plant did not submit a test report for January or
February of 2000 and failed the test in March. Since the
beginning of 1996, the Plant passed nine tests, failed 27,
and did not submit data for four months. Further, the Plant
has not passed a WET test during the fourth quarter since
1994, and failed at least one WET test each year since
1990.

[NC City A] toxicity problems were clearly identified in
readily available summary records at the State’s central and
field offices. The State issued NOVs and assessed
penalties regularly during this period. For example, the
State issued NOVs and assessed penalties for seven months
of violations in 1998 and six months of violations in 1999.
State officials indicated the City had hired a contractor to
study the situation in 2000 and various options were being



           10                            Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

considered to correct the problem including a construction
project.

Region 4 officials did not have reporting procedures in
place which ensured that they learned about continuing
problems with WET in North Carolina. WET test results
for North Carolina were not entered into PCS.
Accordingly, WET test results were not recorded in
QNCRs. Sometimes notations were made manually in
QNCRs about penalties for WET violations. For example,
we saw a notation for [NC City A] in a QNCR that
penalties were “assessed for toxicity violations.” However,
these notations did not communicate the severity of the
problem by identifying how many times the violations had
occurred, or the time period of continuous problems.

The EPA Region 4 Coordinator for North Carolina
indicated he relied on the Region 4 WET Coordinator to
monitor toxicity issues. The WET Coordinator indicated
she had not received any summary reports which identified
the [NC City A] problem. She stated that she performed a
field review of each state in the Region every two years.
During those field reviews she asked state representatives
to tell her about permittees who had difficulty passing the
WET tests. During the reviews she selected samples of
permittees for detailed review. She also conducted a six-
month and annual review of each state in the Region.
Neither these reviews, nor her visits to North Carolina,
disclosed the continuing WET problem at [NC City A].

Since the Region was not aware of these continuing
failures to meet WET requirements, it did not fulfill its
responsibility to help ensure that the State’s waterways
were meeting NPDES permit limits. If Regional personnel
had been aware of the continuing toxicity violations at [NC
City A] over the last eleven years, they could have worked
with State officials, obtained a SOC, resolved the toxicity
problems and cleaned up [NC City A] waters many years
earlier.




          11                          Report No. 2000-P-00025
                      North Carolina NPDES Enforcement and EPA Region 4 Oversight

REGION 4 GENERALLY    Region 4 intentionally focused its oversight on major
DID NOT MONITOR THE   permittees in accordance with national guidance provided
STATUS OF MINOR       by OECA. OECA encouraged EPA Regions to focus on
FACILITIES THAT       permittees who were in SNC and, since only majors were
POLLUTED NORTH        considered to be in SNC, only majors appeared in QNCRs,
CAROLINA WATERS       a primary reporting tool for overseeing the NPDES
                      program. However, available information indicated that
                      minor facilities in North Carolina may have had a
                      significant adverse impact on the quality of some State
                      waterbodies.

                      According to the Chief of NCDENR’s Point Source
                      Compliance/ Enforcement Unit, nine of 10 State penalty
                      assessments during 1999 were against minor facilities. The
                      importance of minor facilities was indicated by the fact that
                      North Carolina treated violations by minor facilities exactly
                      the same as violations by major facilities. The type of
                      problems and the importance of monitoring minors was
                      illustrated by two wastewater treatment plants that were
                      operated by [NC Town B] and [NC Company C], a private
                      corporation.

                      [NC Company C] NPDES permit allowed the privately
                      owned treatment plant to discharge a maximum of 50,000
                      gallons of water each day. However, for 17 of the 20
                      months between August 1998 and March 2000, the
                      monthly average of [NC Company C] discharges exceeded
                      this limit. The State regional official who worked with
                      [NC Company C] told us that [NC Company C] had
                      difficulty meeting its flow limits since 1996. She indicated
                      that, generally speaking, when discharge rates consistently
                      approach 80% of the NPDES limit, consideration should
                      be given to expanding the wastewater treatment plant, and
                      when discharge approaches 90% of the NPDES permit
                      limit, work on plant expansion should have already begun.
                      She stated that [NC company C] discharge was recently
                      121% of its NPDES permit limit.

                      State regional officials tried to persuade the owner of the
                      facility to apply for a SOC, but the owner had not done so.
                      State regional officials assessed penalties on the facility
                      regularly, however, no payment was received from the


                                12                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

facility for the last 12 assessments we reviewed. These 12
assessments, amounting to $19,240, were for violations
between September 1998 and November 1999. The State
Regional Supervisor told us the facility owner, who lived
out-of-state, indicated he did not have funds to fix the flow
problem or pay the State assessments. The owner was
reportedly trying to find another party over the last two
years to take over the facility. State regional officials had
been trying unsuccessfully for several years to get an
adjacent city, the county, or a neighboring military base to
take over the services provided by [NC Company C].

The Wastewater Treatment Plant in [NC Town B] is
illustrative of minor facilities that have experienced
continuing monitoring and permit limit violation problems.
This Plant failed to monitor six items in its NPDES permit
during three of the nineteen months from July 1998,
through January 2000; failed to monitor one or more items
in its NPDES permit during six of these months; either
failed to monitor for biochemical oxygen demand (BOD)
or exceeded the BOD permit limit, for nine of these
months; and exceeded the permit limit for ammonia
nitrogen for eight of these months. The Plant had four
operators since February of 1999, including an operator
who was fired after he attempted to bury unstabilized
sludge without a permit. The Town applied for a
temporary certification for the current operator because the
plant was a Grade 2 facility but the operator was only
certified for a Grade 1 facility. On May 12, 2000, State
Regional Office officials performed a Compliance
Evaluation Inspection and “the Plant was found to be
NonCompliant” (this emphasis was contained in the
Regional Office memorandum).

Various guidance documents envision EPA’s regions
having at least a limited role in overseeing minors. For
example, on October 2, 1989, the Office of Water issued
its Revised Enforcement Management System (EMS)
guidance which identified seven basic principles that were
common to an effective EMS. The first principle was to
maintain a source inventory that was complete and
accurate. This guidance stated: “The inventory data for
majors and significant minors [emphasis added] should be

          13                           Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     entered directly into the Permit Compliance System (PCS,
                     the automated NPDES data base), where it exists, in a
                     timely manner . . . ” Further, 40 CFR Part 123.45
                     required states to report on their compliance and
                     enforcement activities related to minor facilities. States
                     were required to submit annual reports detailing the
                     number of minor permittees reviewed, the number of minor
                     permittees in non-compliance, the number of enforcement
                     actions taken, and the number of permit modifications
                     extending compliance deadlines. North Carolina has not
                     provided this report to Region 4 and we found no evidence
                     that the Region has insisted that it be provided.

                     If Region 4 had followed the guidance in the CFR and
                     EMS, it would have been aware of the problems in the two
                     facilities described above. Since Region 4 officials were
                     unaware of these problem minor facilities, they were unable
                     to either take unilateral action, or support the State’s
                     efforts to bring these problem facilities into compliance
                     with their NPDES permits.

REGION 4 GENERALLY   Region 4 generally did not overfile1, issue administrative
DID NOT TAKE         orders, or take other comparable actions against municipal
UNILATERAL ACTION    facility violators in North Carolina in 1998 or 1999. We
AGAINST FACILITIES   identified only one case during the period of our review
THAT REMAINED IN     where Region 4 took comparable enforcement action
CONTINUOUS           against a North Carolina facility which had violated its
NONCOMPLIANCE        NPDES permit limitations. On June 19, 1998, Region 4
WITH THEIR NPDES     overfiled and issued an administrative order against one
PERMITS              industrial facility with an NPDES permit, the [NC City D]
                     Plant of the [NC Corporation E]. We identified five cases
                     where the State did not negotiate a SOC even though the
                     permittees remained in SNC from approximately six to 45
                     months (see Exhibit 2). In our opinion, Region 4 should
                     have either overfiled or made a determination that
                     overfiling was not necessary.

                     EPA’s MOA with the State provided that when EPA
                     determined that the State had not initiated timely and
                     appropriate enforcement actions for permit violations, EPA
                     could have proceeded with any or all enforcement options



                               14                         Report No. 2000-P-00025
             North Carolina NPDES Enforcement and EPA Region 4 Oversight

             available under the CWA. These options included
             overfiling and issuing administrative orders.

             As described in the next chapter of this report, the State
             did not meet EPA’s guidance for obtaining SOCs timely in
             the SNC cases we reviewed. Moreover, some of these
             cases involved facilities that had been in continuous
             noncompliance for extended time periods. For example,
             [NC Town F] Wastewater Treatment Plant was in
             continuous noncompliance for mercury from September of
             1997 through at least March of 1999. Further, we found
             no indication that Region 4 officials discussed the need for
             a SOC with State officials, or that the Region considered
             initiating its own action in this case.

             Region 4 officials indicated that their NPDES oversight
             work demands increased in recent years while their
             resources remained constant or decreased. Accordingly,
             their resources for overseeing the delegated NPDES
             program were limited. For example, the Chief of Region
             4’s Water Programs Enforcement Branch indicated that
             only one Regional official was assigned to oversee the
             WET program and this official was unable to devote her
             full time to this responsibility.

             When permittees have not complied with NPDES permit
             limits over an extended period of time, water quality may
             have continued to be impacted. If Region 4 had overfiled
             or taken comparable enforcement action in the permit
             violation cases we reviewed, North Carolina’s water
             quality might have been substantially improved during that
             period.

             At the end of our fieldwork, the Region 4 PCS Manager
             informed us that the State had entered WET data into PCS
             during July 2000. Also, at the end of our fieldwork, the
             OIG was conducting a national audit of EPA enforcement
             which included issues related to nationwide enforcement of
             WET violations.

CONCLUSION   Region 4 needs to expand and strengthen its oversight of
             North Carolina’s NPDES program. The need for these
             actions is emphasized by the fact that Region 4 did not have

                       15                          Report No. 2000-P-00025
                  North Carolina NPDES Enforcement and EPA Region 4 Oversight

                  reporting procedures in place which would inform them
                  about WET violations or continuing problems with minor
                  facilities. In addition, the Region did not generally overfile,
                  or take comparable actions, to supplement State efforts to
                  maintain water quality and improve the environment. Since
                  the Region was not aware of the WET violations we
                  reviewed, or the continuing problems at the minor facilities
                  we reviewed, the Region could not adequately oversee the
                  State’s efforts to improve water quality. If the Region had
                  adequate information and had taken action when necessary,
                  the exceedances of NPDES permit limits that have
                  continued might have been reduced or eliminated with
                  resultant improvement in the water quality of the State.

RECOMMENDATIONS   We recommend that the Regional Administrator

                  •      Develop procedures to ensure that failures to meet
                         WET limits in NPDES permits are recorded in the
                         State’s QNCRs, or are otherwise recorded so that
                         this data may be used to monitor the progress that is
                         being made in resolving such violations.

                  •      Develop procedures to obtain the information
                         needed to exercise adequate oversight responsibility
                         over problem minor facilities in North Carolina.

                  •      Review the major North Carolina problem facilities
                         which are identified in QNCRs and the minor
                         problem facilities which are identified in the State’s
                         summary records, to evaluate the need to overfile or
                         take comparable enforcement action when
                         necessary, and require that such overall evaluations
                         be made periodically, at least annually, for all
                         problem permittees.

EPA REGION 4      EPA Region 4's Water Management Division Director
COMMENTS          agreed with the facts that were contained in the Chapter
                  and indicated that discussions were already underway with
                  the State to develop an action plan to address the resolution
                  of the recommendations in the Chapter. However, the
                  Director also indicated that resource constraints would limit
                  the amount of oversight that the Region could devote to


                             16                           Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 monitoring the State’s enforcement actions with minor
                 facilities and the Region would still have to focus its
                 resources on monitoring the State’s oversight of major
                 facilities.

OIG EVALUATION   We agree that EPA Region 4’s resources should be focused
                 on monitoring the State’s oversight of major facilities.
                 However, for the reasons we cited in this Chapter, we
                 continue to believe that the Region should also oversee the
                 State’s minor facilities’ NPDES enforcement activities and
                 should use the State’s summary information already
                 available to accomplish this responsibility. We believe that
                 the anticipated joint action plan proposed by EPA Region 4
                 and the State, once implemented, could significantly help in
                 reaching this goal. We have retained our recommendations
                 in this Chapter pending our review of the anticipated
                 EPA/State joint action plan.




                           17                          Report No. 2000-P-00025
      North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 18                        Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                   CHAPTER 3
ADDITIONAL IMPROVEMENT IS NEEDED BY NORTH CAROLINA TO
ENSURE THAT ENFORCEMENT ACTIONS ARE TIMELY AND
APPROPRIATE



                    State of North Carolina officials did not take timely
                    enforcement actions for significant daily and weekly
                    violations until compliance inspections were done, or until
                    there were violations of one or more monthly NPDES
                    permit limits. This practice resulted in enforcement actions
                    being delayed from nine to 15 months for four of the 17
                    major facilities we reviewed. In addition, this policy may
                    have delayed enforcement actions against minor facilities for
                    considerably longer periods, conceivably years. Also, State
                    officials did not always negotiate agreements with
                    permittees when necessary to achieve compliance because
                    they did not agree that such agreements were practical or
                    appropriate within the time frames specified in the State’s
                    MOA with EPA. Further, when assessing penalties, State
                    officials did not adequately consider the economic benefits
                    that might have accrued to permittees from continuing to
                    operate without being in compliance with their NPDES
                    permits. Because the State did not always take timely and
                    appropriate enforcement actions in accordance with the
                    guidance in its MOA with EPA, discharges may have
                    continued into State waters in excess of the permit limits.

MOA REQUIREMENTS    North Carolina’s MOA with EPA Region 4 required that
                    North Carolina take timely and appropriate action against
                    permittees who were in violation of compliance schedules,
                    effluent limitations, pretreatment standards or other permit
                    limits. The MOA further stated that timely enforcement
                    action began with a written NOV to a major discharger
                    within thirty (30) days of the State becoming aware that a
                    violation had occurred, and actions against minor
                    dischargers were of a lower priority but should have been


                              19                          Report No. 2000-P-00025
                            North Carolina NPDES Enforcement and EPA Region 4 Oversight

                            taken as quickly as possible. Under the Timely and
                            Appropriate Guidance in the MOA, formal enforcement
                            actions, with schedules to bring noncompliant major
                            dischargers back into compliance, were expected generally
                            within 60 days of facilities first becoming in SNC on
                            QNCRs. A formal enforcement action for a noncompliant
                            minor facility was expected as soon as possible. In its MOA
                            with EPA, the State affirmed that it would conduct a timely
                            and substantive review of all self-monitoring reports
                            received and would evaluate the permittee’s compliance
                            status.

State Accomplishments and   The State implemented a new enforcement policy on July 1,
Enforcement Policy          1998 which appeared to have caused more facilities to come
                            into compliance with their NPDES permits. NCDENR
                            reports indicated that the overall compliance rate for
                            NPDES facilities rose from approximately 81 percent in
                            1997 to more than 87 percent during the first half of 2000.
                            In addition, the reports highlighted the improvement trend
                            by showing that during the eight-year period from 1990
                            through 1997, compliance rates never achieved the recent
                            rate of 87 percent but, instead, consistently hovered around
                            80 percent and were never higher than 82.07 percent.

                            Prior to July 1, 1998, NOVs were not necessarily issued
                            within 30 days after a violation was identified. Instead,
                            NOVs were frequently issued at the time that a compliance
                            inspection was done, which could be many months after a
                            violation occurred. In contrast, the policy that was adopted
                            in July 1998, required State regional water supervisors to
                            issue NOVs automatically for most NPDES permit
                            violations within 30 days after they became aware of a
                            violation. The policy also required that an assessment be
                            automatically made, in accordance with a prescribed
                            schedule of penalty amounts for most types of violations,
                            and included consideration of the percentage by which the
                            permit limit was exceeded.

                            For example, State policy specified that a $250 assessment
                            would be made for violations of daily and weekly permit
                            limits and a $1,000 assessment would be made for
                            violations of monthly permit limits. The policy provided


                                      20                          Report No. 2000-P-00025
                              North Carolina NPDES Enforcement and EPA Region 4 Oversight

                              for assessments to be increased from 25 percent to 45
                              percent if there were more than three violations in a six-
                              month period. The Director and Deputy Director of
                              NCDENR and the Water Quality Section Chief retained the
                              right to make the assessment decisions for certain types of
                              enforcement actions. In addition, if a State regional
                              supervisor felt a higher penalty was appropriate, he could
                              forward the case to the Director who was authorized by
                              Statute to assess civil penalties up to $25,000 per day per
                              violation of any permit limit. The State’s enforcement
                              policy increased the number and timeliness of NOVs and the
                              total amount of assessments. NCDENR also put extensive
                              and specific NPDES enforcement related data on their
                              public web site. As indicated previously, there were
                              indications that NCDENR’s initiatives caused permittees to
                              take actions more quickly to achieve compliance with their
                              NPDES permits.

                              The State’s 1998 enforcement policy was generally less
                              stringent toward major dischargers than Region 4 required
                              because, as explained in this Report, the State did not
                              negotiate SOCs in accordance with the Region’s guidance.
                              However, to the State’s credit, their enforcement policy
                              toward minor dischargers appeared to be generally more
                              stringent than the Region required inasmuch as the State
                              issued NOVs against minor dischargers, with automatic
                              penalty assessments where appropriate, within 30 days after
                              identifying a violation. North Carolina’s enforcement policy
                              did not differentiate between major and minor dischargers
                              regarding the issuance of NOVs or making penalty
                              assessments.

                              The importance of taking timely enforcement action for
Importance of Taking Timely   exceedances of daily and weekly permit limits was indicated
Enforcement Action            in a statement, dated September 21, 1995, by the Assistant
                              Administrator of EPA’s OECA: “ . . . violations of the
                              Non-Monthly . . . [NPDES permit limits] do pose a
                              significant threat to the environment/public health.” When
                              NPDES permit limits are exceeded, enforcement actions
                              should be taken timely to ensure that facilities are brought
                              back into compliance as soon as possible.



                                        21                          Report No. 2000-P-00025
                      North Carolina NPDES Enforcement and EPA Region 4 Oversight

ENFORCEMENT           North Carolina NPDES permits contained daily or weekly
ACTIONS ARE NOT       limits for various elements, including mercury and cyanide
ALWAYS TAKEN          but did not contain a monthly average limit for these latter
PROMPTLY FOR          two elements. When permit limits were tested, the values
VIOLATIONS OF DAILY   were recorded manually in DMRs by personnel at the
OR WEEKLY PERMIT      permitted facility. This information was sent to the State’s
LIMITS                central office in the State Capital with State regional offices
                      receiving a copy. Key data elements in the DMRs for
                      majors and minors were recorded in the State’s compliance
                      monitoring system (CMS), and key data elements in the
                      DMRs for majors were recorded in EPA’s PCS. According
                      to State officials, State personnel did not routinely review
                      the DMRs for permit violations because of resource
                      limitations.

                      The State’s policies and procedures required that when a
                      monthly permit limit was exceeded, the DMR for the month
                      be reviewed by State regional officials in the field.
                      Accordingly, if a monthly NPDES permit limit was
                      exceeded at a facility in January, the facility’s DMR for the
                      month of January should have been reviewed by State
                      regional officials, and all exceedances of daily and weekly
                      limits should have been identified. Assessments should then
                      have been made, where appropriate, for exceedances of
                      monthly, weekly and daily NPDES permit limits. However,
                      if there were no violations of a monthly limit, State regional
                      officials did not normally review the DMRs for exceedances
                      of daily or weekly permit limits. Therefore, these
                      exceedances normally went undetected until a compliance
                      inspection was done.

                      EPA guidance required that major facilities have a
                      compliance inspection at least once a year and minor
                      facilities at least once every five years. The State followed
                      EPA’s guidance concerning performing compliance
                      inspections for major facilities and some State regional
                      offices indicated they inspected minor facilities every year.
                      However, at least one State regional office followed EPA’s
                      guidance and performed compliance inspections for minor
                      facilities every fifth year. The State’s policies and
                      procedures also required that a year’s DMRs be reviewed
                      during compliance inspections. Any exceedance of a daily


                                 22                           Report No. 2000-P-00025
                         North Carolina NPDES Enforcement and EPA Region 4 Oversight

                         or weekly permit limit that had not been detected before the
                         compliance inspection should have been detected then.
                         Accordingly, when compliance inspections were completed,
                         NOVs were issued and assessments were made, as
                         appropriate, for all daily and weekly violations that had not
                         been assessed previously for that period. Therefore, a
                         compliance inspection should have caused any delayed
                         enforcement action to have been taken retroactively, when
                         appropriate, at least once every year for major facilities and
                         at least once every five years for minor facilities.

                         The effect of this policy was illustrated in four of the 17
Assessment Made 15       major cases we reviewed. In these four cases State officials
Months After Violation   in the regional offices did not identify some daily or weekly
                         exceedances until a compliance inspection occurred. In one
                         of these cases, the oldest violation occurred 15 months
                         before the inspection, and in the other three cases, the
                         oldest violations occurred between nine and 14 months
                         before the inspection. For example, a compliance inspection
                         on December 4, 1998, revealed that the [NC Town F]
                         Wastewater Treatment Plant in [NC Town F], exceeded its
                         NPDES mercury limits in September 1997, 15 months
                         earlier. No NOV had been issued for this violation at the
                         time the compliance inspection began. Because of the
                         compliance inspection, a NOV was issued on July 14, 1999,
                         and an assessment of $8,979.65 was made for 26 of 32
                         mercury violations. However, no assessment was made for
                         six of the 32 violations, including the one in September
                         1997, because, according to an environmental engineer at
                         the State regional office, they were instructed not to assess
                         for violations that occurred more than a year before the date
                         on which an assessment was made. The potential
                         significance of the 15-month delay in issuing the NOV was
                         underscored by correspondence from the State Director to a
                         Town official, dated February 25, 2000, which stated:

                                The Division has identified . . . [NC Stream
                                G] as an environmentally-impaired stream
                                with designated poor water quality, non-
                                supporting of its intended uses. Moreover, .
                                . . [NC Plant F] is listed as a point source for
                                this environmental impact2.


                                   23                           Report No. 2000-P-00025
                            North Carolina NPDES Enforcement and EPA Region 4 Oversight

                            As illustrated above, State regional officials in the field were
                            not usually aware of daily or weekly violations, unless they
                            were accompanied by monthly violations, until compliance
                            inspections were done. This was true regardless of whether
                            the violation was by a major or minor facility. State central
                            office officials were similarly unaware of these type
                            violations for minor facilities, but they were aware of such
                            violations for major facilities. When DMR data from major
                            facilities was processed in the State’s central office, daily
                            and weekly violations were identified and recorded in the
                            QNCR. However, this information was not usually made
                            available to State officials in the field. This condition was
                            illustrated by the fact that one State regional supervisor
                            asked us what a QNCR was.

Penalty Assessments for     NCDENR’s central office did not take enforcement action
Violations of Daily Or      for the four cases mentioned above, or ensure that their field
Weekly Permit Limits Were   office took enforcement action, because NCDENR did not
Delayed                     consider violations of daily or weekly permit limits, by
                            themselves, to be sufficient justification for taking
                            enforcement actions. They gave several reasons for this
                            position.

                            First, NCDENR officials indicated that most of the time, a
                            daily or weekly violation would not have occurred by itself,
                            but would have been accompanied by a violation of a
                            monthly permit limit. This consideration suggests to us that
                            NCDENR believed the problem was too rare to warrant
                            changing their current practices. However, all 17 of the
                            permits we reviewed contained items that had only daily or
                            weekly NPDES permit limits and four of the 17 cases we
                            reviewed (23.5 per cent) experienced at least one violation
                            of a daily or weekly permit limit, without a violation of a
                            monthly permit limit.

                            Second, NCDENR officials indicated that if the facility was
                            a municipality, it probably administered its own
                            pretreatment program, was aware of the problems and was
                            taking steps to resolve them. We noted that the violations
                            in the four cases cited above continued for extended periods
                            of time and were still being experienced by three of the four



                                       24                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

facilities at the end of our fieldwork. Further, in our
opinion, the existence of a pretreatment program did not
offset the State’s obligation to issue NOVs, or take other
enforcement actions, as appropriate, to ensure compliance
with NPDES permits.

Finally, NCDENR officials indicated that some of the permit
parameter items that only have daily or weekly permit limits,
such as mercury, are difficult to measure. False positives
appear due to problems with sampling and testing
techniques. In our opinion, the merits in this consideration
did not preclude the issuance of a NOV, perhaps without a
penalty assessment, if appropriate, or the commencement of
other enforcement actions, as necessary. If there were valid
reasons for establishing a daily or weekly NPDES permit
limit, these same reasons provided a valid justification for
taking enforcement action as soon as an exceedance was
identified.

We believe that the State’s practice with regard to
enforcement of daily and weekly permit limits appears to be
inconsistent. We question the State practice that requires
an assessment to be made for a violation 12 months after it
occurred, but would not make the same assessment for the
same violation when the State first identified the violation
over a year earlier. In our opinion, any valid reason for not
making an assessment during the first month after a
violation was identified would generally be equally valid a
year later. However, in the four cases we reviewed, State
central office officials knew that violations of a daily or
weekly permit limit had occurred because this information
appeared in the QNCR, but they did not take enforcement
action as soon the violations were identified. Instead, State
central office officials waited until a compliance inspection
was performed by State regional office officials who, in
some cases, issued NOVs for multiple violations that
occurred over the preceding 12 months and made
assessments for those violations. We believe taking
enforcement action as soon as a violation is identified is
more effective than taking the same enforcement action for
the same violation a year later.



          25                          Report No. 2000-P-00025
                            North Carolina NPDES Enforcement and EPA Region 4 Oversight

NCDENR’s Central Office     NCDENR’s central office did not provide QNCRs to State
Did Not Provide Its QNCRs   regional offices, or otherwise apprise State regional officials
To Its Field Offices        of violations of daily and weekly permit limits by major
                            permittees about which the field offices were unaware. It
                            appeared that State regional officials generally maintained
                            periodic contact with the permittees and may have been able
                            to use this information informally in their ongoing
                            consultations to advise permittees how to solve their
                            problems and, in general, to encourage permittees to
                            achieve compliance.

Potential Exists for        In the four minor permittee cases we reviewed, multiple
Extensive Delays in         monthly violations were experienced and, therefore,
Enforcement Actions         violations of daily or weekly permit limits were identified.
Against Minor Facilities    However, as described previously, daily and weekly
                            violations at minor facilities which occurred without an
                            accompanying monthly violation, could have remained
                            unidentified until a compliance inspection was performed.
                            This conceivably might not have occurred until years after a
                            violation since minor facility compliance inspections might
                            only have been conducted once every five years. In our
                            opinion, NCDENR’s practice of delaying enforcement
                            actions for daily and weekly permit limit violations, as
                            discussed above, did not fulfill its responsibility for taking
                            timely and appropriate enforcement actions to protect the
                            environment by ensuring compliance with its NPDES
                            permits.

IMPROVEMENT IS              The State did not follow EPA’s guidance for taking formal
NEEDED IN FORGING           enforcement actions because State officials did not agree
AGREEMENTS WHICH            that this guidance was appropriate in many situations. As a
BRING ABOUT                 result, State agreements with permittees which required
COMPLIANCE WITH             permittees to achieve compliance with their NPDES permits
NPDES PERMIT LIMITS         were either not reached, or not reached timely.
                            Consequently, the elimination or reduction of pollutants in
                            the State’s waters may have been delayed.

EPA Guidance Called for     EPA Region 4’s MOA with the State of North Carolina
An Agreement to Achieve     indicated that by the time a major permittee first appeared
Compliance                  on a quarterly report of noncompliant permittees, the State
                            was expected to have already initiated enforcement actions



                                       26                          Report No. 2000-P-00025
                           North Carolina NPDES Enforcement and EPA Region 4 Oversight

                           to reach compliance. Further, before the permittee
                           appeared on the next quarterly report for a violation of the
                           same permit limit, the State should have taken a formal
                           enforcement action. The MOA defined a formal
                           enforcement action as an agreement that required actions to
                           achieve compliance, specifies a timetable, “ . . . contours
                           consequences for noncompliance that are independently
                           enforceable without having to prove the original violation,
                           and subjects the person to adverse legal consequences for
                           noncompliance . . . ” The MOA further defined a formal
                           enforcement action by the State of North Carolina as either
                           a SOC with the permit violator or a Notice of Continuing
                           Penalty. There were no issuances of Notices of Continuing
                           Penalties for any case we reviewed. When we asked five of
                           the State’s seven regional supervisors what type of
                           enforcement actions they considered, no one mentioned this
                           Notice. The EPA and State officials whom we interviewed
                           either were not familiar with this Notice or did not believe
                           this action was as useful as other enforcement actions.

                           The State was authorized to issue Special Orders Without
                           the Consent (SOWC) of the permitted facility (North
                           Carolina G.S. 143-215.2). However, State officials
                           indicated that their general enforcement approach was to
                           assess repeated fines where violations occurred and obtain
                           SOCs when needed. They indicated that the issuance of
                           unilateral orders could result in protracted court
                           proceedings thus delaying compliance and tying up valuable
                           staff time.

Agreements to Achieve      During our review of case files for 17 major permittees, we
Compliance Were Either     did not find a case where the State met EPA’s guidance for
Not Obtained Or Were Not   obtaining a SOC 3. We found that SOCs should have been
Obtained Timely            obtained for 13 of the 17 major permittees, according to the
                           criteria in the MOA. At the time we completed our field
                           work, SOCs were still needed, according to these criteria,
                           but had not been obtained for three of these 13 permittees.
                           Of the remaining 10 permittees, four permittees came back
                           into compliance and six permittees entered into SOCs.




                                     27                          Report No. 2000-P-00025
                         North Carolina NPDES Enforcement and EPA Region 4 Oversight

                         In an example of a case where a needed SOC was not
                         obtained, the State did not negotiate a SOC with [NC Town
                         F] even though file documents indicated that mercury had
                         been identified as a continuing problem in its wastewater
                         flow since 1985. Further, the Town experienced
                         exceedances of its NPDES permit limits for mercury in 20
                         consecutive months from August of 1997 through February
                         of 1999. The enforcement actions that were taken because
                         of these violations consisted of issuing two NOVs which
                         assessed approximately $9,000 for violations during the ten-
                         month period from May 1998 through February 1999. A
                         file document entitled “ENFORCEMENT CASE
                         ASSESSMENT FACTORS” contained the following
                         statements:

                                 The mercury violations noted may be
                                 considered intentional due to the facility
                                 having knowledge of the violations, yet
                                 taking several years to adequately address
                                 the cause of the high mercury levels in the
                                 wastewater, and adequately remove the
                                 sources or remove the mercury from the
                                 effluent. . . . The Town has been relatively
                                 cooperative in recent dealings, however, as
                                 mentioned above, this problem could have
                                 been solved a long time ago if appropriate
                                 action had been taken in a timely manner.

                         Moreover, the State Director identified this Plant as “ . . . a
                         point source . . . ” for an “ . . . environmentally impaired
                         stream . . . ” (this is the same plant discussed previously in
                         this chapter where the State Director was quoted).

When SOCs Were           Of the 17 major permittee cases we reviewed, six
Obtained They Were Not   permittees negotiated SOCs with the State. One of the six
Obtained Timely          cases was more than seven years old and we could not
                         locate the data to evaluate whether the SOC was negotiated
                         timely. None of the remaining five4 SOCs were obtained
                         within the time period specified in North Carolina’s MOA
                         with Region 4 (See Exhibit 2 for details). For example,
                         [NC Town H] reported mercury concentrations in excess of



                                    28                           Report No. 2000-P-00025
                           North Carolina NPDES Enforcement and EPA Region 4 Oversight

                           its permitted limits every month for nearly three years
                           before the Town applied for a SOC. Moreover, the Town’s
                           application made it clear that legal actions taken by a
                           consumer group, rather than negotiations with the State,
                           caused the Town to apply for the SOC.

                           In the application for a SOC, the Town Manager wrote:

                                  Through this period the State has been
                                  diligently working with [NC Town H] and it
                                  was felt that a Special Order by Consent
                                  would not be necessary. However . . . It was
                                  felt that due to the pending civil action [from
                                  a consumer group] and the continued
                                  detection of effluent levels of mercury, that it
                                  would be in order for the Town to apply for
                                  a Special Order by Consent.

                           When agreements which require permittees to achieve
                           compliance with their NPDES permits are not reached
                           timely, the elimination or reduction of pollutants in the
                           State’s waters may be delayed. In the case of [NC Town H]
                           if the SOC had been negotiated approximately two years
                           earlier, as required by the MOA, mercury levels in those
                           impaired waters may have been reduced earlier.

State Officials Believed   North Carolina officials did not agree that EPA’s guidance
Following SOC Guidance     for obtaining a SOC was appropriate in all situations. The
Was Sometimes Not          North Carolina regional supervisors whom we interviewed
Appropriate                gave various reasons for not negotiating a SOC with a
                           permittee. For example, if they thought a permittee was
                           making a significant effort to eliminate a violation and was
                           making material progress toward this goal, they did not
                           think that a SOC was necessary even if violations were
                           continuing. In addition, they believed that a SOC was not
                           usually appropriate when State and permittee officials were
                           not reasonably certain about the cause of a permit limit
                           violation because they would not be able to provide
                           reasonable milestone dates in a SOC for attaining
                           compliance. Further, North Carolina officials noted that a
                           SOC required the consent of both the State and a permittee.



                                     29                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

If the permittee did not want a SOC, regardless of the
merits of such an agreement, the State could not force the
permittee to sign it. Finally, State officials indicated that
State Statutes did not allow for the issuance of SOCs when
noncompliance was a result of poor operation. Per North
Carolina Administrative Code, Title 15A, Subchapter 2A,
Section 1206:

       Requests [for SOCs] will not be evaluated
       unless it is demonstrated by the permittee to
       the satisfaction of the Director that
       noncompliance is not due to failure by the
       permittee to properly operate, manage and
       maintain the wastewater treatment system.

None of the State files we reviewed contained a statement
(or other type of notation) which indicated that a SOC was
not pursued because the permittee was not operating the
facility properly.

State officials also believed that the time table for obtaining
a SOC was not realistic. They maintained it would take at
least three months, and usually five or six months, to obtain
a SOC under the best of circumstances when there were no
questions or disagreements between any parties. State
officials emphasized that extensive SOC negotiations may
have occurred between the time that the permittees we cited
first came into SNC and the date that the SOC was actually
signed (see Exhibit 2). The time required to process a SOC
was indicated by the State’s Standard Operating Procedures
for Water Quality Section SOCs, dated April 23, 1997,
which stated:

•      Once the State and a permittee have agreed on a
       draft SOC, it will be sent directly to public notice
       during the next available public notice period.
•      Public Notice will be given at least forty-five days
       prior to any final action regarding the Consent
       Order.
•      A public hearing may be required before entering
       into a SOC.



           30                          Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     •      If there is no comment, or inadequate comment is
                            received to justify a public hearing, the SOC will be
                            routed fifteen days following the close of the
                            comment period to the State Deputy Director and
                            then to the Director for final review.5

                     In our opinion, when the State did not negotiate SOCs with
                     applicable permittees, the State did not meet their
                     obligations under their MOA with EPA. In particular, their
                     enforcement actions, other than SOCs, did not commit
                     permittees to specific, tangible efforts to achieve compliance
                     in the future in accordance with a timetable that had been
                     accepted both by the permittee and the State.

NORTH CAROLINA DID   The July 1998 change in North Carolina’s penalty
NOT ADEQUATELY       assessment policy resulted in more timely penalty
CONSIDER ECONOMIC    assessments for facilities that violated their permit limits.
BENEFIT OF           However, the penalty amounts assessed may not have been
NONCOMPLIANCE        sufficient to bring repeat violators into compliance timely.
WHEN ASSESSING       On July 1, 1998, the State’s Water Quality regional
CIVIL PENALTIES      supervisors were delegated the authority to assess penalties
                     in accordance with a schedule of penalty assessments. Set
                     penalty amounts were established for specific violations.
                     Fines of $1,000 per monthly violation and $250 per weekly
                     violation were issued if the permit limits were exceeded by
                     20 percent. The assessed penalty amounts could be
                     escalated, up to a maximum of 45 percent, if there were
                     more than three violations in a six-month period. However,
                     the escalated assessed penalty amounts did not take into
                     consideration the fact that some violators might have
                     obtained an economic benefit by paying the penalty and
                     avoiding or delaying measures to bring the facility into
                     compliance. In some cases, the remedies could have cost
                     millions of dollars if new plants or extensive rehabilitations
                     of sewer collection systems were needed.

                     North Carolina’s policy for assessing penalties was not
                     consistent with its MOA with EPA. The MOA required
                     that economic benefit be considered when penalties were
                     assessed. The MOA, dated May 9, 1994, stated:




                               31                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

       The determination of a penalty amount (or
       equivalent sanction) should be based on
       factors such as the seriousness of the
       violation(s), any history of noncompliance,
       any good faith effort to comply with
       applicable requirements, the amount of
       economic benefit resulting from the
       violation, the economic impact of the penalty
       on the violator, and such other factors as
       justice may require . . .

The interim CWA Settlement Policy, dated March 1, 1995,
stated that the objective of the economic benefit calculation
was to place violators in the same financial position as they
would have been if they had complied on time.

According to the State’s Chief of the Water Quality
Section, the assessment of economic benefit would have
been beneficial in some cases. However, it wasn’t part of
the State policy to have regional supervisors assess a
penalty following a violation of a monthly permit limit.
According to the Chief, economic benefit calculations
would have slowed their penalty assessment process and the
instances where it would have been beneficial were rare.
Also, the State indicated it had other enforcement
mechanisms, such as sewer moratoriums for municipalities.
In addition, the State indicated they didn’t have anyone on
staff who was familiar with EPA’s Economic Benefit of
Noncompliance (BEN) model used to calculate economic
benefit.

The State penalty assessment files we reviewed contained a
one page preprinted form that listed eight factors which
were to be considered when determining the penalty
assessment amount. One of the eight factors was “The
amount of money saved by noncompliance.” The form also
contained the same five potential answers, ranging from
“not significant” to “extremely significant” for each of the
eight factors. We did not locate any document that showed
an actual State computation of the violator’s potential
savings from noncompliance. We were informed by EPA



          32                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

Region 4 officials that the BEN model used to calculate
economic benefit from noncompliance has been used
successfully throughout the country for many years.

The policy of not using economic benefit in determining the
amount of assessed penalties may have reduced the
incentive for some repeat violators to enter into SOCs with
schedules for coming into compliance. For example, we
identified a Wastewater Treatment Plant in [NC Town A]
that was assessed repeatedly for failing to meet the WET
limits in its NPDES permit. The Town failed eight of 10
tests for toxicity in 1998, 9 of 10 tests in 1999, and the last
nine tests it took through March 2000, the last month
shown in the summary record we reviewed. Further, the
Town has not passed a test during the fourth quarter since
1994, and failed at least one test each year since 1990. The
State issued NOVs and assessed penalties for seven months
of violations in 1998 and six months of violations in 1999.
The State’s regional office tried to get the Town to
negotiate a SOC, but the Town had not done so at the time
we completed our field work. The State’s environmental
specialist who works with the Town stated:

       . . .the staff of the Department of Water
       Quality suspects the Town believes that
       paying the fines is cheaper than paying for a
       TRE . . .

(TRE: toxicity reduction evaluation - a study to determine
the cause of toxicity levels, which typically would be
required in a SOC).6

We also identified two cases in which violating facilities
paid the penalty assessments but did not agree to a
compliance schedule in SOCs. For example, [NC County
I] had been assessed penalties eleven times totaling $29,395
for permit violations at its [NC County I] Wastewater
Treatment Plant from May 1998 through January 2000. In
another case, the [NC City J] Plant was assessed penalties
five times totaling $5,084 for permit violations from April
1999 through January 2000. At the time we completed our



           33                           Report No. 2000-P-00025
                  North Carolina NPDES Enforcement and EPA Region 4 Oversight

                  field work, penalty assessments were pending for violations
                  for February, March and April 2000 at the [NC City J]
                  Plant. Neither permittee had a schedule for compliance
                  despite a history of noncompliance. Neither permittee was
                  assessed penalty amounts that took into account the
                  economic benefit of delaying actions needed to come into
                  compliance.

CONCLUSION        North Carolina improved the timeliness of its penalty
                  assessments in recent years but further improvement was
                  needed in its NPDES enforcement efforts in three areas.
                  First, North Carolina needed to change its practice of not
                  taking enforcement actions against major permit violators
                  for violations of daily or weekly permit limits until a
                  compliance inspection was done, or there was a violation of
                  a monthly NPDES permit limit. Further, North Carolina
                  needed to develop procedures for ensuring that daily and
                  weekly exceedances of NPDES permit limits by minor
                  facilities were identified within 30 days. Second, North
                  Carolina needed to improve its enforcement practices by
                  timely obtaining agreements from permit violators to
                  achieve compliance. Agreements to obtain compliance were
                  either not obtained, or not obtained timely. This was due to
                  the fact that State officials did not believe such agreements
                  should be obtained, in every situation, within the time
                  frames specified in the State’s MOA with EPA. State
                  officials also believed other enforcement actions were
                  sufficient to bring about compliance with NPDES permit
                  limits in some cases. Third, economic benefit was not
                  adequately considered when penalties were assessed, or
                  other types of enforcement actions were contemplated, due
                  to the fact that State officials believed using this concept
                  would have slowed the penalty assessment process. If
                  improvements in State enforcement efforts are not made,
                  exceedances of NPDES permit limits are likely to continue
                  and State waters will continue to be polluted.




RECOMMENDATIONS   We recommend that the Regional Administrator ensure that



                            34                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 North Carolina:

                 •      changes its current practice of not taking
                        enforcement action within 30 days for violations of
                        daily and weekly permit standards which are not
                        accompanied by violations of monthly standards

                 •      provides QNCRs to NCDENR field officials or
                        otherwise apprises them of violations of daily and
                        weekly permit limits by major facilities

                 •      detects exceedances of daily and weekly NPDES
                        permit limits within 30 days after receipt of DMRs
                        from minor facilities. In the absence of CMS
                        software enhancements, or other better means of
                        identifying such exceedances, we recommend that
                        the Regional Administrator encourage the State to
                        require that DMRs be manually reviewed for daily
                        and weekly exceedances of NPDES element limits
                        when DMRs do not have monthly permit limits.

                 •      uses SOCs, as appropriate, when permit violations
                        persist and State waters are being polluted and that
                        the State accounts for the delays in reaching
                        agreements with permittees, where appropriate, for
                        achieving compliance.

                 •      incorporates adequate consideration of economic
                        benefit by permit violators in penalty assessments
                        against repeat offenders, and

                 •      provides training to North Carolina officials on how
                        to use the BEN model.


STATE COMMENTS   The State indicated their willingness to take unilateral
                 actions where possible and work with EPA Region 4 to
                 resolve issues raised in this Report Chapter. The State also
                 indicated that DWQ would provide copies of the QNCRs to
                 each of the State field offices and they would work with
                 EPA to evaluate the need to update the language in its



                           35                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 MOA. We believe these steps and the DWQ plan to work
                 closely with EPA Region 4 could resolve all pending issues.

                 The State also indicated that they thought we suggested that
                 every violation must be addressed with a formal
                 enforcement action. The State’s response suggested that an
                 undetected violation of a non-monthly limit will be a rare
                 occasion, an isolated single violation. The State’s response
                 also indicated that a manual review of all DMRs was not
                 practical or desirable. The State indicated that their
                 enforcement policy against violators had changed since
                 1997 and that this had resulted in increased compliance
                 rates. The State added that SOWCs were not a wise use of
                 their resources. North Carolina also indicated that they
                 believed that factoring economic benefit of non-compliance
                 more thoroughly into their assessments would detract from
                 the timeliness of their assessments. Further, the State
                 indicated that our report seemed to challenge the fact that
                 SOCs cannot be issued for instances of noncompliance that
                 are operational in nature. Finally, the State’s response
                 asserted that their enforcement policy fulfills the
                 commitment they made in their MOA to take formal
                 enforcement actions.

OIG EVALUATION   We did not suggest that that every violation must be
                 addressed with a formal enforcement action. The MOA did
                 not require a formal enforcement action after every
                 violation. In accordance with their MOA, we believe every
                 violation that was reflected in a DMR should have been
                 identified by a State representative. Our report addressed
                 violations of non-monthly permit limits that were not
                 accompanied by violations of monthly permit limits, not
                 violations of non-monthly permit limits that were
                 accompanied by violations of monthly permit limits. We
                 believe that undetected violations of non-monthly limits are
                 not rare. Such violations went undetected from nine to 15
                 months in four of the 17 major cases we reviewed (23.5 per
                 cent). The State’s MOA with EPA required the State to
                 conduct a timely and substantive review of all self-
                 monitoring reports received and evaluate the permittees’




                           36                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

compliance status. We acknowledged the State Code
which prohibits SOCs from being issued for instances of
noncompliance that are operational in nature in our draft
report and did not “challenge” that Code. We also made the
point that none of the State files we reviewed contained a
statement (or other type of notation) which indicated that a
SOC was not pursued because the permittee was not
operating the facility properly.

In response to the State’s comments that their enforcement
policy had changed in 1997 and this had resulted in
increased compliance rates, we added related information to
the final report which we were able to evaluate. With
regard to the State’s discussion of their non-use of SOWCs,
our draft report statements related to this issue mentioned
only that the State had the authority to use this enforcement
tool but that the State’s approach, instead, was to assess
fines and obtain SOCs when needed.

The State was required by their MOA to factor in an
evaluation of the economic benefit of non-compliance in
their penalty assessments. Such evaluation could be done
on a case by case basis, concentrating on more severe and
repeated violations, as provided for in the MOA.

We continue to disagree with the State’s assertion that their
enforcement policy fulfilled the MOA commitment to take
formal enforcement actions. The State’s enforcement
actions, other than negotiating SOCs, did not obtain the
permittees’ commitment to take specific, tangible actions to
achieve compliance by a specific time in the future.

In our opinion, the other points raised in the States response
were already fully addressed in the draft report.
Accordingly, we did not change the wording in this Chapter
of our report.




          37                           Report No. 2000-P-00025
      North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 38                        Report No. 2000-P-00025
                   North Carolina NPDES Enforcement and EPA Region 4 Oversight




                   CHAPTER 4
NORTH CAROLINA NEEDS TO IMPROVE ITS STORMWATER
COMPLIANCE MONITORING AND ENFORCEMENT PROGRAM

                   North Carolina’s NPDES compliance monitoring activities
                   were generally sufficient to detect instances of non-
                   compliance, excluding daily and weekly limit violations.
                   Except for stormwater sites, State on-site inspections of
                   NPDES point sources were performed at required intervals
                   during the period July 1998 through June 2000, and
                   permittee violations of monthly discharge limits were
                   generally detected in a timely fashion. However, the State
                   had not developed a compliance monitoring strategy and
                   program for NPDES stormwater permits. State
                   management officials told us that resource constraints
                   prevented them from developing a compliance monitoring
                   program for stormwater permits. Although water quality
                   data indicated that stormwater was a significant contributor
                   to surface water impairment in North Carolina, the State and
                   EPA did not have assurance that facilities with stormwater
                   permits were complying with their permit requirements or
                   taking all required measures to reduce pollution from
                   stormwater run-off.

NPDES STORMWATER   In 1987, Congress amended the CWA to require
REQUIREMENTS       implementation, in two Phases, of a national stormwater
                   permit program. Regulations implementing Phase I were
                   promulgated on November 16, 1990, in the Federal
                   Register ( 55 FR. 47990). Phase I required NPDES
                   permits for stormwater discharges from large and medium
                   municipal separate storm sewer systems (MS4) generally
                   serving populations of 100,000 or more, construction sites
                   that disturb five or more acres of land, and certain other
                   industrial sites (e.g., landfills). The Final Rule for Phase II
                   of the Federal stormwater program was published in the
                   Federal Register on December 8, 1999, and was effective




                             39                            Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

February 7, 2000. Phase II expanded the stormwater
permit program to include small MS4s (those serving
populations under 100,000), and construction sites that
disturbed one to five acres. EPA’s final rule for Phase II
stormwater permits discussed the water quality concerns
posed by stormwater runoff as cited in various impact
studies and assessments. In general, stormwater runoff can
cause or contribute to exceedance of water quality
standards by changing natural water flow patterns,
accelerating stream flows, destroying aquatic habitat, and
elevating pollutant concentrations.

Stormwater permits differed from other NPDES point
source permits in that the permits required best
management practices (BMP) instead of discharge limits.
NPDES permits required that these BMPs be outlined in a
pollution prevention plan prepared by the facility.
Stormwater permits generally required monitoring and
sampling of discharges during specified storm events for
certain parameters of concern. These sampling results were
used to evaluate loadings (i.e., the amount of pollutants)
entering receiving waters. Since the stormwater permits did
not contain discharge limits, these sampling results were not
evaluated for compliance against permit limits as was done
for other NPDES point sources. According to a key
Region 4 enforcement official, EPA is moving toward
requiring that stormwater permits contain discharge limits.

40 CFR Part 123.25 required that states with EPA
approved NPDES programs implement the stormwater
programs described in Part 122.26. North Carolina’s FY
2000 CWA Section 106 Grant Workplan contained a
commitment that the State develop a stormwater
enforcement strategy for prioritizing stormwater inspections
and enforcement. However, the State did not agree to this
commitment because of stated concerns about the
availability of resources to conduct this work.

Within North Carolina, the DWQ was responsible for
issuing all NPDES stormwater permits and monitoring
compliance with NPDES permits for MS4s and industrial



          40                          Report No. 2000-P-00025
                               North Carolina NPDES Enforcement and EPA Region 4 Oversight

                               stormwater sites. The State’s Division of Land Resources,
                               as part of the State’s Erosion and Sediment Control
                               Program, oversaw construction activity and had
                               responsibility for conducting inspections of construction
                               sites and determining sites’ compliance with BMPs. If the
                               Division of Land Resources’ inspection found a violation of
                               BMPs or other NPDES requirements, they notified DWQ
                               of these violations, then DWQ could initiate an enforcement
                               action for NPDES stormwater violations (e.g., for failure to
                               comply with monitoring requirements).

State Stormwater Initiatives   Both State and EPA Region 4 officials cited various
                               accomplishments that the State had achieved in regard to
                               their overall stormwater program including both NPDES
                               and State initiated programs. For example, EPA Region 4
                               noted that despite resource challenges, North Carolina had
                               demonstrated effective and innovative use of stormwater
                               requirements to address illegal ditching and draining
                               activities in its coastal wetlands. According to the Region,
                               this ditching initiative required both EPA and North
                               Carolina to contribute resources toward enforcement
                               actions that have resulted in restoration of wetlands and
                               deterrence of future violations. We also noted that the
                               State had recently completed its web page on the
                               stormwater program. This web page provided the public
                               with important information on the State’s overall
                               stormwater program including both the federally required
                               NPDES program and the State stormwater initiated
                               programs. For example, information could be found on
                               State workshops conducted to explain the requirements of
                               the NPDES Phase II program and to solicit local
                               government feedback on the implementation of Phase II.
                               The web page also discussed a stakeholder process
                               convened to develop a framework for a comprehensive
                               statewide stormwater management program. State officials
                               also noted that they had developed a stormwater
                               management program to control the input of nutrients into
                               the Neuse River Basin. According to State officials, this
                               effort had resulted in a model stormwater management plan
                               for nitrogen control.




                                         41                          Report No. 2000-P-00025
                   North Carolina NPDES Enforcement and EPA Region 4 Oversight




COMPLIANCE WITH    State officials told us that they had not established a
STORMWATER         comprehensive compliance monitoring and enforcement
REQUIREMENTS NOT   program for stormwater permits. Specifically,
ROUTINELY
MONITORED          •      stormwater industrial sites were not routinely
                          inspected but were generally inspected on a
                          complaint basis or in conjunction with other NPDES
                          inspections,

                   •      stormwater self-monitoring reports were not
                          reviewed to determine whether sites were complying
                          with their monitoring requirements,

                   •      inspections of non-construction stormwater sites
                          were not tracked and monitored, and

                   •      the State did not develop adequate guidance for
                          conducting stormwater inspections

                   As of April 2000, North Carolina had issued six MS4 and
                   3,421 industrial stormwater permits. All MS4 permits
                   contained monitoring requirements and 2,747 of the
                   industrial permits potentially required the facility to monitor
                   and analyze stormwater discharges and report these results
                   to the State. All of these permits required the permittee to
                   qualitatively (i.e., visually) monitor all stormwater outfalls.
                   State officials were unable to tell us how many of these
                   industrial sites were inspected during the last two inspection
                   years. Regional inspectors told us that in most cases they
                   only inspected stormwater sites if a citizen’s complaint was
                   received or in conjunction with inspections of other NPDES
                   permits for that facility.

                   Data indicated that construction sites with NPDES permits
                   were frequently inspected by the Division of Land
                   Resources. However, these inspections focused on the
                   sites’ implementation of BMPs and did not evaluate
                   compliance with NPDES monitoring requirements. The
                   number of active construction sites was variable, but State


                              42                          Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight

                    officials estimated that they had approximately 2,800
                    construction sites under its general construction permit, as
                    of April 2000. According to Division of Land Resources
                    officials, their Division had conducted approximately 5,300
                    inspections during the 12-month period July 1998 through
                    June 1999, and approximately 3,500 inspections during the
                    10-month period July 1999 to April 2000.

MINIMAL RESOURCES   North Carolina officials told us that their stormwater
WERE DEVOTED TO     compliance monitoring efforts had been limited due
STORMWATER          resource constraints. North Carolina had not designated
COMPLIANCE          any positions primarily dedicated to compliance monitoring
                    and enforcement of NPDES stormwater permits. The
                    DWQ’s Stormwater and General Permits Unit consisted of
                    seven positions, including a supervisor. All of these
                    positions were responsible for NPDES stormwater permit
                    review and issuance, as well as supporting the State’s non-
                    NPDES stormwater programs and issuing General
                    wastewater permits. Regional offices were responsible for
                    conducting inspections of all NPDES facilities. However,
                    none of the regional office staff was primarily dedicated to
                    performing stormwater compliance oversight. The Raleigh
                    Regional Office told us that they have one person assigned
                    responsibility for conducting NPDES stormwater
                    inspections, however, stormwater inspection was only one
                    of her responsibilities.

                    State officials indicated that the NCDENR Water Quality
                    Division’s Basin Wide Information Management System,
                    once fully implemented, should provide the necessary
                    tracking of stormwater self-monitoring data. However,
                    State officials told us that the final implementation date of
                    the system was contingent upon the availability and timing
                    of adequate funding for the project.

STORMWATER          Without a stormwater compliance monitoring program, the
CONTRIBUTES         State and EPA did not have assurance that facilities were in
SIGNIFICANTLY TO    compliance with their stormwater permits or taking all
STREAM IMPAIRMENT   required measures to reduce pollution from stormwater
                    runoff. State water quality reports indicated that pollution
                    related to stormwater runoff was a likely cause of
                    impairment in a significant number of impaired surface


                               43                          Report No. 2000-P-00025
             North Carolina NPDES Enforcement and EPA Region 4 Oversight

             waters in North Carolina. State water quality reports
             indicate that pollution related to stormwater runoff is
             a potential cause of impairment in a number of impaired
             surface waters in North Carolina. The State’s 2000 §
             303(d) list indicates that 19% of the State’s impaired stream
             miles listed for sediment and/or turbidity are potentially
             impacted by construction, development, urban runoff, and
             non-urban runoff.

             We could not determine the extent of NPDES stormwater
             permit violations occurring statewide because that
             information was not available. However, we observed that
             the stormwater related inspections the State regional offices
             had performed resulted in the detection of violations and
             enforcement actions in some instances. For example, one
             State regional office had recommended a $50,975 civil
             penalty assessment against a developer for repeated failures
             to comply with the monitoring requirements of his NPDES
             stormwater permit. This action was initiated after the
             Division of Land Resources had inspected the site and
             found it to be in violation of its sedimentation and erosion
             control plan. In another case, an inspection of an asphalt
             plant found indications of oil spills. The inspector noted
             that plant employees present during the inspection could not
             produce a copy of its pollution prevention plan even though
             the permit required that it be kept on-site. In another
             example, as part of an investigation of a fish kill, a State
             regional office inspector found that an NPDES stormwater
             permittee was discharging, via a storm drain, high levels of
             pH7 (measure of how acidic or alkaline a substance is) into
             the creek where the fish kill had occurred.

CONCLUSION   EPA studies, referenced in the Federal Register (55 FR.
             47990), as well as State water quality data, showed
             pollution resulting from stormwater runoff in North
             Carolina to be a significant water quality concern. Further,
             the State’s regional inspectors found instances where
             permittees were not complying with their stormwater permit
             requirements. Although water quality data indicated that
             pollution from stormwater runoff was a significant water
             quality concern, State officials indicated that a lack of
             resources had prevented them from developing and


                        44                         Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 implementing a stormwater compliance strategy and
                 program. Implementation of Phase II of the stormwater
                 program will significantly increase the number of
                 stormwater sites requiring NPDES permits and compliance
                 monitoring. We believe the State and EPA should evaluate
                 the State’s current NPDES compliance activities and
                 resource allocation to determine whether sufficient
                 resources can be obtained to implement an adequate
                 stormwater compliance program.

RECOMMENDATION   We recommend that the Regional Administrator provide
                 assistance and guidance as necessary to assist North
                 Carolina in evaluating their current NPDES enforcement
                 strategy and related resource allocation. This evaluation of
                 the State’s NPDES enforcement strategy and resource
                 allocation should determine whether an adequate
                 stormwater compliance monitoring program can be
                 provided by reallocating existing resources. We further
                 recommend that the Regional Administrator consult with
                 the State on this evaluation and assist the State, to the
                 extent feasible, in devising a plan to incorporate an adequate
                 stormwater compliance monitoring program in their
                 enforcement strategy and resource allocation.

EPA REGION 4     EPA Region 4 noted in their response that stormwater
RESPONSE         regulation implementation was an issue that challenges
                 Region 4 and its states, and that this stormwater
                 requirement has put a heavy demand on CWA resources
                 that are already being strained from other emerging issues
                 (e.g., Total Maximum Daily Loading (TMDL)
                 requirements). The response also noted North Carolina’s
                 significant accomplishments in addressing illegal ditching
                 and draining activities in the State’s coastal wetlands.

NORTH CAROLINA   The North Carolina DWQ concurred that pollution
RESPONSE         resulting from stormwater runoff is a significant water
                 quality concern in North Carolina. The State noted that
                 the stormwater runoff problem is greater in scope than
                 what can be addressed by Phase I and II of the NPDES
                 Stormwater program. In recognition of the scope of the
                 stormwater problem, the State responded that they



                            45                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 administer a State Stormwater Management program that
                 regulates development activities within its 20 coastal
                 counties as well as development activities that affect
                 Outstanding Resource Waters and High Quality Waters.
                 The response also noted that the DWQ administers a
                 Water Supply Watershed Protection Program and has
                 implemented buffer rules and stormwater management
                 requirements in the Neuse, and Tar-Pamlico river basins.
                 In regard to the draft report’s recommendation, DWQ
                 responded that the diversion of resources from other
                 aspects of the NPDES program was not an alternative that
                 they believed would protect water quality. DWQ
                 responded that it in the past it has attempted to obtain
                 additional funding for stormwater compliance and
                 enforcement activities from federal grants and the State
                 legislature, and will continue to seek additional funding
                 from these sources. DWQ also indicated that it will
                 continue to work with the State’s Division of Land
                 Resources to improve coordination of compliance
                 monitoring activities. During our exit discussion with
                 State officials, these officials told us that they interpreted
                 our draft recommendation to suggest that they divert
                 resources from other NPDES activities to the Stormwater
                 program.

OIG EVALUATION   Based on our discussions with EPA Region 4 and State
                 officials we revised the wording of the draft report’s
                 recommendation to clarify that we are not recommending
                 that the State reallocate resources to the stormwater
                 program. However, we are recommending that EPA and
                 the State conduct an evaluation to determine whether it
                 makes sense to reallocate existing resources to the
                 stormwater program. Both EPA Region 4 and the State’s
                 response to the draft report indicated that the State and
                 Region 4 will be collaborating to prepare a joint action plan
                 for addressing the issues and recommendations presented
                 in the draft report. Pending our receipt and evaluation of
                 the joint action plan, we revised the draft report’s
                 recommendation and included the revised recommendation
                 in this Chapter.




                            46                           Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                   CHAPTER 5
TEST METHODS USED BY NPDES FACILITIES WERE NOT ALWAYS
SENSITIVE ENOUGH TO DETERMINE COMPLIANCE WITH PERMIT
LIMITS


                    Test methods used by North Carolina’s NPDES permitted
                    facilities to analyze discharge samples were not always
                    sensitive enough to produce reporting levels that were
                    below the maximum NPDES discharge limits for total
                    residual chlorine and mercury during 1999. In the case of
                    total residual chlorine, some minor facilities did not use the
                    most sensitive test methods available, but instead used a less
                    expensive and less sensitive method to analyze samples. For
                    mercury, a test method capable of producing reporting
                    levels below the discharge limits for this pollutant was
                    approved by EPA in June 1999. The use of these new and
                    more sensitive methods by NPDES permitted facilities had
                    not been phased in at the time of our review. When the test
                    methods used to analyze discharge samples were not
                    capable of accurately reporting pollutant concentrations at
                    levels below the permit limit, the State and EPA could not
                    determine whether the facility was in compliance with its
                    permit discharge limits, and could not fully evaluate the
                    potential harm to the environment these discharges might
                    have created.

NORTH CAROLINA      North Carolina required all permits to contain a standard
NPDES TESTING       clause regarding the type of testing that a permittee must
REQUIREMENTS        use when testing its effluent. This clause stated that:

                            ...all test procedures must produce
                           minimum detection and reporting levels that
                           are below the permit discharge requirements
                           and all data generated must be reported
                           down to the minimum detection or lower
                           reporting level of the procedure. If no


                              47                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

       approved methods are determined capable
       of achieving minimum detection and
       reporting levels below permit discharge
       requirements, then the most sensitive
       (method with the lowest possible detection
       and reporting level) approved method must
       be used.

The minimum detection level referred to in the NPDES
clause was also referred to as the limit of detection. Limit
of detection was defined by the American Chemical
Society, as “ . . . the lowest concentration the analytical
process can detect . . . ,” and by the International Union of
Pure and Applied Chemistry as “ . . . the concentration or
amount derived from the smallest measure that can be
detected with reasonable certainty for a given analytical
procedure . . . ” The minimum reporting level referred to
in the NPDES clause was also known as the quantitation
limit or limit of quantitation. The limit of quantitation was
defined as the minimum concentration in an analyzed
sample that can be reported with statistical certainty.

For analytical results below the limit of detection, presence
of the analyte cannot be confirmed or denied with
certainty. For analytical results falling in the range between
the limit of detection and the limit of quantitation, the
analyte is present, but the concentration of the analyte
cannot be reliably reported. Amounts reported above the
limit of quantitation can be reliably reported with a high
degree of statistical certainty. Per an April 1999 State
Policy Memorandum, North Carolina’s policy was to
interpret test results below the quantitation limit as zero for
compliance purposes. For example, assume a test method
for a particular pollutant had a quantitation limit of 10
micrograms per liter (ug/l) and a permit contained a
discharge limit for that same pollutant of 5 ug/l. A test
result of 9 ug/l would be interpreted as zero and not
considered in violation of the 5.0 ug/l permit limit because
of the uncertainty associated with the accuracy of the 9
ug/l test result. We did not question this practice, since
test results below the quantitation limit are statistically



          48                           Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     uncertain (i.e., an estimate), and cannot be directly
                     compared to a permit limit.

                     When writing a permit, North Carolina determined whether
                     or not a discharge limit was needed for a given pollutant
                     based on a “reasonable potential analysis.” This technique
                     used a statistical analysis for each parameter (pollutant) of
                     concern that had either a state or federal water quality
                     standard. Essentially the objective was to determine the
                     maximum allowable concentration of the parameter in the
                     waste stream which would not result in a violation of the
                     water quality standard for that parameter in the receiving
                     water.

SOME MINOR           Generally, when facilities used a chlorination process to
FACILITIES DID NOT   treat wastewater, the State’s NPDES permit contained a
USE THE MOST         discharge limit for total residual chlorine. Four of the 11
SENSITIVE TEST       minor facility permits we reviewed contained total residual
AVAILABLE FOR        chlorine discharge limits. These four permits required a
TOTAL RESIDUAL       monitoring and testing frequency of either two or three
CHLORINE             times a week and all contained a daily maximum discharge
                     limit of 28 ug/l. Discharge monitoring reports indicated
                     that two of these four facilities used test methods for total
                     residual chlorine that could not reliably report test results
                     below 100 ug/l. Whenever these facilities’ daily total
                     residual chlorine tests indicated effluent levels below 100
                     ug/l they were reported as “< 100 ug/l” on their monthly
                     DMR. Accordingly, these test results were considered
                     compliant with the daily maximum permit limit of 28 ug/l
                     even though the true concentration of the discharge was
                     unknown and could have exceeded the 28 ug/l permit limit.

                     North Carolina’s policy was to require that analyses of
                     wastewater discharge samples be performed in a state-
                     certified laboratory. Major NPDES permitted facilities
                     normally had an on-site laboratory to perform this analysis.
                     However, according to State officials, minor facilities did
                     not have on-site laboratories. Further, State officials
                     indicated that it was not feasible for these minor facilities
                     to send these samples to an off-site contract laboratory for
                     analysis since EPA required that chlorine samples be
                     analyzed within 15 minutes of collection. As a result,


                               49                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

these minor facilities were granted waivers to the
laboratory certification requirement and conducted tests for
chlorine in the field as opposed to conducting the test in a
laboratory. State officials indicated that minor facilities
have commonly used a relatively inexpensive field
instrument for testing chlorine which was not capable of
accurately reporting total residual chlorine concentrations
down to the permit limit. We did not determine the
number of minor facilities Statewide that did not use the
most sensitive test available. Based on data obtained from
North Carolina’s CMS, as of July 2000, the State had
approximately 310 active minor NPDES permits with total
residual chlorine discharge limits.

Based on our discussions with EPA chemists, EPA-
approved methods for laboratory analysis could achieve a
quantitation level of 50 ug/l. The EPA-approved
laboratory methods required minimal laboratory space and
equipment and were simple to perform. No expensive
equipment was required but a modest indoor space was
required at the wastewater treatment plant where lab
equipment could be stored and tests performed. Improved
field instruments may present another alternative to
achieving lower quantitation limits than 100 ug/l. The
manufacturer of the inexpensive field instrument used by
many minor facilities made other more sophisticated, and
expensive field instruments. We discussed the sensitivity of
one of these instruments with a State Laboratory official.
The instrument we discussed costs around $2600. This
official stated that this instrument has demonstrated
quantitation levels as low as 10 ug/l in the field. He
cautioned that quantitation levels could vary between
facilities and not all operators could achieve this low
quantitation level. Therefore, his office was more
comfortable with a quantitation limit of 20 ug/l for this
instrument.

However, State officials expressed concerns that this more
expensive instrument may not be able to obtain the lower
quantitation limits in day to day operations. State officials
indicated that this machine is delicate and requires all of
the set-up procedures that would normally be required for


          50                          Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     an in-house laboratory test. A potential alternative to the
                     more expensive instrument is to utilize the matrix-matched
                     standard addition technique developed by U.S. EPA’s
                     Region 4 Science and Ecosystems Support Division. This
                     technique allows the analyst to overcome the difficulties
                     associated with the detection of total residual chlorine at
                     concentrations at or near the method detection limit. This
                     technique was approved for use in NPDES testing by the
                     Director, Office of Water Analytical Methods Staff in a
                     June 8, 2000-memorandum. The memorandum indicated
                     that this technique did not require formal approval as an
                     alternate NPDES test procedure because the chemistry of
                     the method was not changed.

                     State officials indicated that the State had not consistently
                     required all facilities to use the more expensive and
                     sensitive instruments as required by their permit. Some
                     State regional office officials told us they were addressing a
                     facility’s failure to use the most sensitive instrument
                     available during the annual compliance inspection for the
                     facility. However, as a matter of policy, the State had not
                     required these facilities to use the most sensitive methods
                     available.

NEW TEST METHOD      Depending upon the results of the State’s reasonable
SHOULD PROVIDE       potential analyses, an NPDES permitted facility could have
NEEDED SENSITIVITY   a daily mercury discharge limit as low as 0.043 ug/l. For
TO EVALUATE          most of the period covered by our review, the only EPA
COMPLIANCE WITH      approved analytical methods for mercury were Methods
MERCURY LIMITS       245.1 and 245.2. Since these methods had quantitation
                     limits of .2 ug/l they did not possess the required sensitivity
                     to determine compliance with mercury limits of .043 ug/l.
                     Information obtained from the State’s CMS indicated that,
                     as of July 2000, North Carolina had 66 active NPDES
                     permits with discharge limits for mercury.

                     Effective June 8, 1999, EPA approved method 1631
                     Revision B for mercury. This analytical method has a
                     published method detection limit of .0002 ug/l and a
                     quantitation limit of .0005 ug/l. In a 1999 policy
                     memorandum on quantitation limits, the State expressed



                               51                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

concerns about the ability of this new method to accurately
quantify mercury concentration in complex wastewater. In
order to address this concern, we reviewed the results of
the EPA Method 1631 Interlaboratory Validation Study
(dated March 1998). We also discussed the method’s
performance with Region 4 laboratory personnel, and with
one of the commercial laboratories that participated in the
EPA Validation Study and performed method 1631- Rev.
B on a commercial basis. The consensus opinion was that
the wastewater matrix would, at worst, raise the
quantitation limit of Method 1631 from 0.0005 ug/l to
between 0.001 and 0.010 ug/l. This elevated quantitation
limit would be four times more sensitive than the State
required 0.043 permit limit.

A potential impediment to implementing the new method
for mercury is possible increased costs due to the required
sampling procedures and the need for an ultraclean
laboratory in which to conduct the test. The added
expense of performing the new procedure in-house would
be considerable since it would require the development of
an ultraclean laboratory. However, obtaining these
services on a contract basis did not appear to cost-
prohibitive based on our analysis. Commercial laboratories
generally charge approximately $60 per sample for analysis
using methods 245.1 and 245.2. We contacted two firms
that perform the newly developed Method 1631 Rev. B on
a commercial basis. The cost per sample for the new
method ranged from $55 to $97.50 based on the level of
quality assurance and documentation requested by the
client. The North Carolina NPDES permits we reviewed
that contained mercury limits, required testing on a weekly
or less frequent basis.

Implementation of the new mercury method does present
technical issues related to sampling. The composite
samplers used to collect discharge samples may potentially
contaminate the effluent sample with mercury at the very
low detection levels provided by Method 1631 Rev. B.
Twenty-four hour composite sampling8 is usually required
by most NPDES permits. However, the method



          52                         Report No. 2000-P-00025
                     North Carolina NPDES Enforcement and EPA Region 4 Oversight

                     documentation for Method 1631 Rev. B only addresses the
                     use of grab9 samples. Therefore, the permittee is left to
                     develop and demonstrate acceptable performance of the
                     composite sampling process through the collection and
                     analysis of field blanks10. However, due to the sensitivity
                     of the new method, field blanks will probably also show
                     mercury contamination. For example, assume that the
                     permit limit is .043 ug/l, test results on the effluent
                     discharge indicate .050 ug/l of mercury, and test results on
                     the field blank indicate .020 ug/l of mercury. Should the
                     discharge sample concentration be reported as .050 ug/l
                     and in violation of the permit? Or should the field blank
                     value of .020 ug/l be subtracted from the discharge
                     sample’s test result to give a result of .030 ug/l which
                     would be determined to in compliance with permit? We
                     believe this is a national policy issue that should be
                     addressed by EPA’s Office of Water. In the meantime,
                     however, we believe that implementation of acceptable
                     new testing methods should proceed as appropriate.

                     We discussed the implementation of this new mercury
                     method with the North Carolina Water Quality Section
                     Chief. The Chief indicated that the state was looking into
                     the possibility of using the new method for mercury.
                     However, there were not any labs in the general vicinity of
                     North Carolina using this method. The Chief indicated that
                     the State had discussed upgrading their laboratory to be
                     able to perform the new method. However, this would
                     require them to build a new laboratory which would be
                     costly and the Chief indicated that it was unlikely that
                     funding would be made available.

STATE AND EPA        The State and EPA Region 4 were unable to determine a
UNABLE TO EVALUATE   facility’s compliance with permit limits when the tests
PERMIT COMPLIANCE    used were not capable of accurately reporting test results
AND POTENTIAL        down to the limits specified in the permit. Information on
IMPACT OF            permit violations was also used by the State to determine
DISCHARGES ON THE    potential sources of impairment for streams, estuaries, and
ENVIRONMENT          lakes. For example, impaired streams which received a
                     discharge from a facility that was significantly out of
                     compliance with its permit limits may have caused that



                               53                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

facility to be listed as a potential source of pollution on the
CWA Section 303(d) List of impaired waterbodies.

Damage to the environment could occur from discharges
of pollutants beyond the concentrations allowed by permit
conditions. For example, chlorine is immediately toxic to
aquatic life at low levels. Federal criteria guidance
recommended that in-stream concentrations not exceed 19
ug/l as an acute value and 11 ug/l as a chronic value.
Chlorine does eventually dissipate through natural
volatilization. Mercury is toxic to aquatic life at low levels
but is a greater concern as a threat to human health.
Mercury is bio-accumulative meaning that it is retained in
the bodies of organisms that consume nutrients or other
organisms containing mercury. Fish tissue sampling is
routinely conducted in waterbodies known to have mercury
contamination, and health advisories are issued when fish
contain mercury levels too high to be considered safe for
human consumption. In humans mercury can affect organs
such as the spleen, brain, and liver. Federal criteria
guidance recommended that in-stream mercury
concentrations not exceed 0.05 ug/l to be protective of
human health.

According to State officials mercury was an important
issue with regard to the quality of the State’s waters. For
example, fish tissue testing in North Carolina has shown
mercury to be a problem. As of February 2000, ten
separate fish consumption advisories were in effect for the
State with regard to mercury. In addition, the State’s final
draft “North Carolina’s 2000 §303(d) List” of impaired
waters included 25 separate waterbodies (included
rivers/streams, lakes, and areas of the Atlantic Ocean) as
requiring TMDL for mercury; and the potential source of
the pollution either (1) included NPDES point sources; or
(2) was unknown. Additional waterbodies were listed on
the §303(d) List as impaired by mercury, but the source of
pollution for these segments was identified solely as
atmospheric deposition.




          54                           Report No. 2000-P-00025
             North Carolina NPDES Enforcement and EPA Region 4 Oversight

             Not using the most sensitive test methods could also
             impact the implementation of new Federal water quality
             rules. EPA has recently issued requirements for reporting
             of TMDL in waterbodies. Use of the most sensitive
             methods available for analysis relates to this process in
             much the same way it relates to the NPDES permit
             process; the more accurate and sensitive the method used,
             the more closely reports will reflect the actual quality of
             the waterbody being measured. In addition, there is a
             potential for inaccurate reporting if the State’s NPDES
             data interpreted as “zero” for compliance purposes is
             interpreted as “zero” when averaged with other data to
             produce daily loading of waterbodies. This practice would
             result in reports of incorrectly low loadings and
             waterbodies would be reported as cleaner than the
             measurements indicate.



CONCLUSION   The test methods used by NPDES permitted facilities were
             not always sensitive enough to determine compliance with
             permit limits. Improved test methods were recently
             developed which were more sensitive than the methods
             used by NPDES permittees. The use of the most sensitive,
             available test methods was critical to the success of the
             NPDES permit program. The usefulness of permit limits
             was significantly diminished if the tests being used by
             NPDES facilities were not capable of determining whether
             the permittee was in compliance with these limits. In
             addition, the accuracy of water quality analysis and reports
             can be affected if the most sensitive and accurate discharge
             data is not available.




                       55                         Report No. 2000-P-00025
                   North Carolina NPDES Enforcement and EPA Region 4 Oversight

RECOMMENDATIONS    We recommend the Regional Administrator provide
                   guidance and direction as necessary to ensure that North
                   Carolina:

                   •      Develops a plan to phase in the use of instruments
                          with the lowest reporting limits for analyzing total
                          residual chlorine concentrations, and

                   •      Develops a plan to phase in the use of EPA
                          method 1631 Rev. B for analyzing wastewater
                          effluent concentrations of mercury.

EPA REGION 4 AND   The EPA Region 4 response did not specifically address
STATE COMMENT      this Chapter’s findings and recommendations. However,
                   EPA Region 4 noted in its response that both Region 4 and
                   North Carolina senior officials have met to discuss
                   resolution of many of the recommendations contained in
                   the draft report. Further, agreements have been made to
                   collaboratively construct an action plan to address or
                   clarify issues in North Carolina’s implementation of the
                   program and EPA Region 4's oversight role.

                   The North Carolina DWQ expressed concerns about the
                   reliability of the newer field instruments for testing total
                   residual chlorine when used in day to day field operations.
                   DWQ also noted that implementation of the new mercury
                   method will require specialized training of analysts as well
                   as special laboratory conditions before the method can be
                   performed correctly. Accordingly, DWQ proposed to
                   work with EPA to develop a plan to (1) implement any
                   new methodology for analyzing total residual chlorine as
                   appropriate, and (2) phase in the use of the new mercury
                   test method as appropriate.




                             56                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

OIG EVALUATION   We recognize the State’s concerns about implementation
                 of the new instruments and methods cited in this Chapter
                 and concur that their use will require a phase in period,
                 especially in regard to the new mercury method. Both
                 EPA Region 4 and the State responded that they will be
                 collaborating to develop a joint action plan to address the
                 issues and recommendations in the draft report. Pending
                 our receipt and evaluation of the joint action plan, we are
                 retaining the draft report’s recommendations in this
                 Chapter.




                           57                          Report No. 2000-P-00025
     North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 58                       Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                   CHAPTER 6
NORTH CAROLINA’S ANIMAL FEEDING OPERATIONS SHOULD BE
PERMITTED UNDER NPDES REQUIREMENTS


                    North Carolina’s enforcement officials indicated that North
                    Carolina had begun to take a more pro-active stance with
                    regard to animal feeding operations (AFO) enforcement
                    penalties. NCDENR conducted annual inspections of all
                    AFO facilities in our sample. North Carolina indicated they
                    were assessing additional penalty levels based on whether or
                    not the facility had a past history of violations and the
                    number and severity of violations. North Carolina had
                    begun assessing a civil penalty amount, generally $1,000, in
                    those cases where the facility failed to self-report a
                    discharge or violation.

                    However, the State of North Carolina did not issue NPDES
                    permits to facilities that met applicable federal CAFO
                    regulations. During the period covered by our fieldwork,
                    North Carolina had approximately 1,123 AFOs which
                    exceeded the applicable federal NPDES CAFO threshold
                    (see next page for threshold criteria). North Carolina did
                    not issue NPDES permits to applicable AFOs because they
                    believed their permit program was more appropriate than
                    the NPDES permit program. North Carolina contended
                    that their permit program was more stringent than the
                    NPDES program. According to EPA Region 4 officials, the
                    State repeatedly resisted EPA’s efforts to induce them to
                    issue NPDES CAFO permits in addition to their State AFO
                    permits. When compared to NPDES CAFO permit
                    requirements, North Carolina’s AFO permit conditions did
                    not contain Federal enforceability, adequate third party
                    lawsuit coverage, sufficient public notice, and EPA
                    oversight.




                              59                         Report No. 2000-P-00025
             North Carolina NPDES Enforcement and EPA Region 4 Oversight

NPDES/CAFO   Livestock production has been a major industry in North
REGULATORY   Carolina and has also been a source of pollution in its rivers
BACKGROUND   and streams. Pollution from livestock waste could be
             classified as either non-point source or point source. Non-
             point source pollution occurred when precipitation washed
             contaminants from tracts of land to surface and ground
             water. Congress, in the CWA, and EPA, in its regulations,
             categorized pollution from CAFOs as point source
             pollution, therefore requiring an NPDES permit. NPDES
             regulations imposed a “no discharge” effluent limitation on
             CAFOs, meaning that except under a chronic and
             catastrophic rainfall event at a properly constructed and
             operated facility, all runoff from animal confinement areas
             must be captured in a containment structure such as a
             lagoon.

             The CWA gave EPA the authority to regulate point source
             discharges into waters of the United States through NPDES
             permitting. The CWA made it unlawful for any person to
             discharge any pollutant from a point source into navigable
             waters unless an NPDES permit had been obtained under
             the Act. 40 CFR Part 122.23 states that CAFOs were
             point sources subject to the NPDES permit program. An
             AFO, according to 40 CFR Part 122.23, Appendix B, was
             considered a CAFO if either of the following criteria were
             met:

             •      More than 1000 animal units11 were confined; or

             •      From 301-1000 animal units were confined and it
                    also met one of the specific criteria addressing the
                    method of discharge:

                    (1) Pollutants were discharged into waters of the US
                    through a man-made ditch, flushing system, or other
                    similar man-made device; or

                    (2) Pollutants were discharged directly into waters
                    of the US that originated outside of and pass over,
                    across, or through the facility or came into direct
                    contact with the confined animals.



                        60                          Report No. 2000-P-00025
             North Carolina NPDES Enforcement and EPA Region 4 Oversight

             In addition, under 40 CFR Part 122.23(c), AFOs could be
             designated as CAFOs on a case-by-case basis by the
             NPDES authorized permitting authority if they determined
             they had been or still were significant contributors of
             pollutants to waters of the United States.

STATE AFO    AFOs were agricultural enterprises where animals were kept
PERMITTING   and raised in confined situations. The State of North
             Carolina issued general and individual permits to AFOs
             under their State permit program. Although these permits
             prohibited the discharge of waste water to waters of the
             United States, they did not include all of the applicable
             CWA and NPDES regulatory provisions and, therefore,
             were not NPDES permits. North Carolina reported, in
             their quarterly reports, 104 AFO discharges from October
             1, 1998 until September 30, 1999, of which 29 discharges
             reached North Carolina surface waters. Surface water
             discharges could cause major water quality impacts and
             threaten public health. Depending upon the number of
             animals housed at these facilities, the facilities responsible
             for these discharges may have met the CWA definition of a
             CAFO and may, therefore, have been required to have
             NPDES permits.

             According to EPA Region 4 officials, the State resisted
             EPA’s efforts to persuade them to issue NPDES permits.
             Furthermore, North Carolina officials indicated that they
             believed the NPDES permit structure would cause
             confusion among the facility operators who they thought, if
             issued an NPDES permit, might have believed that
             discharges were allowable.

             North Carolina’s AFO permit program appeared to be more
             stringent than the NPDES CAFO program in some areas.
             For example: (1) issuance of State general permits to all
             facilities with 250 or more hogs, (Federal regulations
             required an NPDES permit if the facility had 2,500 or more
             hogs, or smaller numbers under certain conditions); and (2)
             the State inspected AFO facilities at least once a year,
             (Federal inspection guidelines recommended all CAFOs be
             inspected within three to five years). We agreed that the
             State AFO permit program was more stringent in some


                        61                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 areas, however, 40 CFR Part 123.25(a) specifically stated
                 that:

                        While State’s may impose more stringent
                        requirements, they may not make one
                        requirement more lenient as a tradeoff for
                        making another requirement more stringent...

                 On September 29, 1999, North Carolina requested that EPA
                 Region 4 grant them “functional equivalency” to continue
                 their program as is. According to EPA Region 4 officials,
                 EPA could not grant “functional equivalency” to the North
                 Carolina AFO program because of both programmatic and
                 regulatory constraints. EPA regulations required, prior to
                 approval of a state program, that it meet the requirements at
                 40 CFR Part 123, including the no less stringent and
                 jurisdictional scope provisions. Region 4 officials indicated
                 that, programmatically, they also had issues with the
                 submission, including, 1) insufficient public notice and
                 public comment provisions, 2) lack of federal enforceability
                 of the proposed general permit, 3) less stringent effluent
                 limitations in the general permit, and 4) that a rule change
                 may be necessary as CAFOs were not specifically included
                 among the areas to be covered by “general permits” in the
                 NPDES program as originally approved. EPA Region 4
                 had not officially responded to North Carolina’s request for
                 functional equivalency as of the end of our fieldwork.

POTENTIAL        Livestock operations can cause environmental degradation
ENVIRONMENTAL    of surface and ground waters unless the resultant waste is
IMPACT OF CAFO   collected, stored, and utilized or disposed of in an
DISCHARGES       environmentally sound manner. Although it is difficult to
                 determine the exact contribution of any particular nonpoint
                 source on a national basis to water quality, it is widely
                 recognized that AFOs can pose a number of risks to both
                 water quality and public health, mainly because of the
                 amount of manure and waste water they generate. Manure
                 and waste water from AFOs have the potential to contribute
                 pollutants such as nitrate and phosphorus, organic matter,
                 sediments, pathogens, heavy metals, hormones, and
                 ammonia to the environment. Excess nutrients in water



                            62                         Report No. 2000-P-00025
                         North Carolina NPDES Enforcement and EPA Region 4 Oversight

                         (i.e., nitrogen and phosphorus) can result or contribute to
                         low levels of dissolved oxygen (anoxia), eutrophication, and
                         toxic algal blooms. These conditions may be harmful to
                         aquatic life and human health and, in conjunction with other
                         circumstances, have been associated with outbreaks of
                         microbes such as Pfiesteria piscicida. Moreover,
                         improperly managed or sited AFOs may produce odors that
                         nearby residents find objectionable. North Carolina
                         reported in their Fiscal Year 2000 CWA Section 303(d) List
                         of Impaired Water Bodies that six waterbody segments
                         may have been impaired due, in part, to AFO pollution.

                         The United States Department of Agriculture, EPA, and
                         North Carolina have recognized the many potential
                         environmental impacts associated with AFOs. The amount
                         of manure and other waste material generated by CAFOs
                         was so large that a spill while handling manure or a breach
                         of a storage system could have released large quantities of
                         manure and waste water into the environment. This release
                         may cause major water quality impacts and threaten public
                         health. EPA’s position was that most AFOs with more than
                         1,000 animal units probably have discharged in the past or
                         had a reasonable likelihood to discharge in the future and,
                         therefore, should have applied for, obtained, and operated
                         under an NPDES permit.

NORTH CAROLINA’S         Due to the potential for major environmental impacts
AFO PROGRAM DID          caused by discharges from AFOs, it was important that the
NOT ADEQUATELY           State’s permits and permit program included all applicable
ADDRESS FOUR KEY         NPDES provisions. North Carolina’s AFO permit program
NPDES PROVISIONS         hindered the enforcement ability of EPA and did not
                         adequately inform the public since it did not include
                         adequate provisions for:

                                •        Federal enforceability,
                                •        Third party lawsuits,
                                •        Public notice or
                                •        EPA oversight

Federal Enforceability   EPA had the authority under the CWA to take enforcement
                         actions against point source discharges. Applicable permit
                         data relating to North Carolina AFOs and related point


                                    63                             Report No. 2000-P-00025
                       North Carolina NPDES Enforcement and EPA Region 4 Oversight

                       source discharges was not required to be inputted into PCS
                       due to the fact that North Carolina had not issued NPDES
                       CAFO permits. Therefore, EPA Region 4’s ability to
                       enforce against pollutant discharges was hindered by a lack
                       of information on CAFO operations. In addition, if NPDES
                       permits had been issued, EPA would have had the ability to
                       enforce against violations of all permit conditions. For
                       example, State permitted AFO facilities were required to
                       ensure and maintain proper lagoon free board levels at all
                       times. The freeboard is the level from the top of the lagoon
                       to the waste that allows for normal periods of rain or storm
                       without causing an overflow or discharge.

                       Since NPDES permittees were required to design,
                       construct, and operate an NPDES CAFO facility in order to
                       prevent a discharge, except for catastrophic and chronic
                       rainfall events, EPA had the authority to take enforcement
                       actions for violations such as inadequate freeboard levels.
                       However, because North Carolina’s AFOs were not issued
                       NPDES permits, EPA could not take enforcement action
                       against violators of freeboard level limits in North Carolina.

Third Party Lawsuits   Under federal provisions, if a member of the general public
                       believed that a facility was violating its NPDES permit
                       conditions, that member could have independently started a
                       legal action against the violator, unless EPA or the state
                       regulatory agency had already taken an enforcement action.
                       North Carolina’s AFO program had provisions only for law
                       suits in the case where a person was directly affected by
                       siting requirements per North Carolina Senate Bill 1217.
                       This siting limitation greatly hindered the ability for the
                       general public to bring suits against violators.

Public Notice          NPDES federal regulations required that a 30-day public
                       notice period be given prior to a facility being issued a
                       permit. However, the North Carolina AFO permit program
                       did not have this requirement. North Carolina statutes did
                       provide that the Director of the DWQ, might at his
                       discretion, allow for public notice or comments, however,
                       we were told this option was rarely used. The only other
                       North Carolina statutory requirement for public notice
                       applied specifically to swine farms. Under North Carolina


                                  64                          Report No. 2000-P-00025
                North Carolina NPDES Enforcement and EPA Region 4 Oversight

                House Bill 515, Part IV, Section 106-805, the provisions
                require that the permit applicant:

                       ...notify all adjoining property owners and all
                       property owners who own property located
                       across a public road, street, or highway from
                       the swine farm . . .

                In contrast, under Federal requirements, if a facility had
                applied for an NPDES permit, the permitting authority (i.e.,
                State of North Carolina) must have provided notice in a
                major local newspaper, usually in the legal section of the
                classified ads, or in an official publication such as the
                Federal Register.

EPA Oversight   The State of North Carolina received authorization to run
                the NPDES program within the State in 1975. However,
                EPA, through Region 4, maintained NPDES oversight
                responsibilities. Because North Carolina had not issued
                NPDES CAFO permits, EPA did not have direct access to
                either North Carolina’s AFO facility or enforcement
                information. EPA’s inability to directly access North
                Carolina’s AFO permit and program information had a
                significant impact on EPA’s ability to oversee the program
                and to ensure that AFO’s had a minimum impact on both
                public health and overall water quality. During our
                fieldwork, North Carolina had approximately 1,123 AFOs
                that met the federal definition of a CAFO. However, the
                EPA did not have direct access to any of these facilities’
                data. In addition, of the universe of 24 facilities with
                reported discharges during the period of October 1998
                through August 1999, eight of these facilities met the
                federal definition of CAFOs due to their size alone. Had
                those eight facilities been operating under NPDES permits,
                EPA would have been aware of the discharges and,
                therefore, could have taken enforcement actions against the
                violators.

CONCLUSION      The State of North Carolina did not issue NPDES permits
                to facilities that met applicable federal CAFO regulations.
                According to EPA Region 4 officials, the State repeatedly
                resisted EPA’s efforts to induce them to issue NPDES


                           65                         Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 CAFO permits. North Carolina’s AFO permits did not
                 adequately address the following key provisions when
                 compared to NPDES CAFO permit requirements: Federal
                 enforceability, adequate third party lawsuit coverage,
                 sufficient public notice, and EPA oversight. Manure and
                 waste water from AFOs have the potential to contribute
                 pollutants such as nitrate and phosphorus, organic matter,
                 sediments, pathogens, heavy metals, hormones, and
                 ammonia to the environment. Due to the potential for
                 major environmental impacts caused by discharges from
                 AFOs, it was important that these facilities be regulated
                 under fully enforceable NPDES permits.

RECOMMENDATION   We recommend that the Regional Administrator ensure that
                 North Carolina issue NPDES permits to all facilities that
                 meet the federal CAFO definition. If no such agreement can
                 be reached, we recommend that the Regional Administrator
                 consider withholding an appropriate portion of Section 106
                 Water Grant funding relating to State permitting activities.

EPA REGION 4     Region 4 officials indicated that factual clarification was
COMMENTS         necessary for certain statements in this chapter and provided
                 us with suggested revisions.

STATE COMMENTS   North Carolina asserted that they did not resist EPA’s
                 efforts to induce them to issue NPDES CAFO permits. In
                 addition, North Carolina stated that when requesting
                 functional equivalency, they were not trying to resist federal
                 regulatory prohibitions against having less stringent
                 requirements than those specified in Federal Rules. They
                 added that they were asking for interpretation of the U.S.
                 Department of Agriculture and U.S. EPA Unified Strategy
                 for Animal Feeding Operations. In response to our
                 assertion that EPA’s ability to enforce against discharges
                 was hindered due to lack of PCS data, North Carolina
                 stated that they have repeatedly offered to authorize access
                 to EPA of all the State’s AFO permitting and compliance
                 databases. The State also indicated that it provided
                 adequate notice of its AFO permitting by its Public Notice
                 for the Animal Waste General Permit issuance before 1997.




                            66                          Report No. 2000-P-00025
                 North Carolina NPDES Enforcement and EPA Region 4 Oversight

                 North Carolina took exception to our reference to the 24
                 discharges reported from October 1, 1998 through August
                 31, 1999. They added that EPA reviewed hundreds of files
                 and did not report any incident of inadequate enforcement.
                 In addition, North Carolina stated that they have completed
                 enforcement actions on almost all of the 24 discharges.
                 The State also took exception to our draft report statement
                 concerning the extent of State waters which may have been
                 affected by CAFO pollution.

OIG EVALUATION   We generally agreed with EPA Region 4's suggested
                 revisions and incorporated them into the final report.

                 According to several key EPA Region 4 officials, North
                 Carolina has resisted efforts to issue NPDES CAFO
                 permits. We recognize that EPA Region 4 had not
                 responded formerly to North Carolina’s request dated Sept.
                 29, 1999. However, EPA Region 4 had informally informed
                 North Carolina that EPA would not grant North Carolina
                 functional equivalency. Specifically, the Region’s FY 2000
                 Midyear review of North Carolina’s Water Programs
                 reported that the State continues to pursue approval of their
                 State-based CAFO permitting program as “functionally
                 equivalent” to the NPDES Program while EPA continues to
                 inform the State that this course of action is not feasible. In
                 addition, North Carolina’s original request for functional
                 equivalency was based on North Carolina’s current program
                 which did not incorporate all of the necessary NPDES
                 requirements. We recognize that the North Carolina permit
                 program may be more stringent in areas outside of the two
                 examples cited in our report. However, this does not relieve
                 North Carolina from the requirement of issuing permits that
                 include all applicable regulatory provisions.

                 In response to the State’s objection to our draft report
                 statement concerning the extent of State waters which may
                 have been affected by CAFO pollution, we revised that
                 statement to more accurately reflect the supporting
                 evidence.




                            67                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

With regard to the lack of Federal enforceability against
pollutant discharges by AFO’s in the State, we recognize
the State’s offer to authorize EPA Region 4 access to the
State’s AFO permitting and compliance databases.
However, this does not preclude the State from issuing
NPDES CAFO permits and entering the required permit
data in EPA’s PCS database. Regarding the State’s
assertion that it provided adequate public notice of its AFO
permitting, we recognize that the State issued the Public
Notice for the Animal Waste General Permit before its
issuance in 1997. However, this action did not satisfy the
NPDES requirement that a 30-day public notice period be
given prior to each facility being issued a permit.

The universe of 24 discharges used in our review was
obtained from North Carolina’s DWQ. We reviewed ten
farm and enforcement files. Due to the fact that State AFOs
were not part of the NPDES program and, therefore, not
subject to NPDES enforcement by EPA Region 4, we did
not assess the adequacy of AFO State enforcement actions.
However, we found that the State had not taken
enforcement actions on several AFO discharges as of the
completion of our field work.




           68                         Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                OTHER MATTERS


NORTH CAROLINA’S    A pilot program was established under North Carolina
AFO PILOT PROGRAM   House Bill 1160, Part III, in 1997, which impacted the
MAY NOT HAVE BEEN   annual inspections of AFOs subject to North Carolina’s
EFFECTIVE           permit. During the period of our review, North Carolina
                    had three counties designated as pilot counties: Jones,
                    Columbus, and Brunswick. Under the pilot program,
                    North Carolina’s Division of Soil and Water Conservation
                    (S&W) conducted inspections at least once a year of all
                    animal operations subject to North Carolina permits.

                    Within these pilot counties, S&W was the only regular
                    inspection presence for all AFO facilities. However,
                    NCDENR DWQ officials told us they generally did not
                    take any enforcement actions based solely on S&W
                    inspection results. We were informed that it was
                    NCDENR DWQ’s practice that they only considered
                    taking enforcement actions when NCDENR DWQ
                    inspectors also observed the S&W reported discharges. If
                    these AFOs had been operating under NPDES CAFO
                    permits, EPA could have taken enforcement actions based
                    solely on S&W inspection results.

                    NCDENR DWQ did not have a regular monitoring and
                    enforcement presence within these three pilot counties,
                    therefore, facilities in these counties may not have been
                    adequately inspected, the results of the inspections may not
                    have been conveyed to the Department, and effective
                    enforcement actions may not have been taken. Since
                    DWQ did not take enforcement actions based solely on
                    S&W inspection results and had no authority to conduct
                    annual inspections unless called in by S&W or a citizen
                    complaint, this program may not have been operating
                    effectively. Additionally, S&W inspectors generally took
                    less stringent enforcement positions with farmers. S&W
                    was viewed by the farmers and the Department as there to


                              69                         Report No. 2000-P-00025
                          North Carolina NPDES Enforcement and EPA Region 4 Oversight

                          assist the farmer more than to monitor and enforce AFO
                          discharges which was viewed by the State as more the role
                          of the Department.

North Carolina Uniform    DWQ officials could not provide us with evidence of
Guidance, Criteria, and   uniform guidance, criteria, and training for regional AFO
Training for AFO          inspectors. Regional AFO inspectors told us that they did
Inspectors May Are        not have specific guidance or criteria on the types of
Inadequate                violations which would have triggered recommendations
                          for enforcement actions and civil penalty assessment.
                          Additionally, the regional inspectors indicated that they did
                          not have guidance or criteria on how to prepare a formal
                          enforcement package.

                          We found inconsistences among enforcement actions taken
                          in response to pollution discharges into waters of the State.
                           For example, in some cases the documented discharges
                          resulted in assessed civil penalties, but for others the
                          regional inspector claimed to have reinspected the facility
                          via an undocumented “informal inspection” and determined
                          no enforcement action was necessary. We discussed the
                          lack of guidance with North Carolina enforcement officials
                          and were told they were in the process of developing
                          guidance, but neither draft guidance nor a future date for
                          planned issuance of that guidance was available.

                          Additionally, we noted that DWQ inspectors may not have
                          received specific or uniform training with regards to
                          conducting AFO inspections, identifying violations, or
                          preparing enforcement packages. The DWQ regional
                          inspectors told us training generally consisted of quarterly
                          inspector meetings where certain stated topics of interest
                          were addressed. In addition, we were told that, in lieu of
                          formal training, regional inspectors relied heavily on
                          experience and on-the-job training.

                          If sufficient guidance and training were developed, it
                          would have ensured more consistent field inspections,
                          complete inspection reports, and uniform enforcement
                          actions. We suggest that NCDENR DWQ finalize and




                                    70                          Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight

                    issue uniform guidance and consider developing uniform
                    training for its AFO Inspectors.

NORTH CAROLINA’S    North Carolina’s permit enforcement action data was not
DATA IN EPA’S PCS   maintained in EPA’s PCS as agreed upon between the State
WAS INCOMPLETE IN   and EPA Region 4 in the State’s CWA Section 106 FY
KEY AREAS           1999/2000 Water Grant Workplan. In addition, North
                    Carolina did not enter the results of monitoring for facilities
                    WET testing requirements. North Carolina maintained a
                    separate data system for enforcement actions and WET
                    permit monitoring that was not linked to PCS. North
                    Carolina’s maintenance of an adequate level of data quality
                    in PCS was imperative in order to enable EPA Region 4 to
                    track key components of the State’s NPDES program.
                    Without this data quality EPA Region 4 could not
                    adequately fulfill its Congressionally-mandated oversight
                    role related to the State’s water quality.

                    The PCS was EPA’s central nationwide database that
                    supported the NPDES program at the state, regional, and
                    national levels. EPA Region 4 used PCS to track key
                    NPDES components including monitoring, inspection, and
                    enforcement actions and to monitor the compliance status
                    of each facility according to the requirements in the
                    individual NPDES permit. EPA also relied on the accuracy
                    of data in PCS for its use in generating key oversight
                    reports such as the significant noncompliance reports, the
                    Recap National Report, and reports to Congress. These
                    reports summarized the key components of NPDES
                    program activity by state and were used by state and
                    Federal officials to assess the effectiveness and efficiency of
                    the NPDES program. According to an Office of Water and
                    OECA joint Memorandum dated February 22, 1999, PCS
                    directly supported a key Congressionally-mandated EPA
                    priority related to the Government Performance Results Act
                    (GPRA). Maintaining a level of data quality in the system
                    was imperative in order to determine if the Agency was
                    meeting its commitments under GPRA.

                    For example, one of the GPRA goals for water programs
                    related to reductions in pollutant loadings from point



                              71                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

sources. Reliable and comprehensive baseline data in PCS
was necessary in order to determine whether that goal had
been met. EPA Region 4 also used PCS data to prioritize
national activities based on various analysis of the data.
This analysis was used to determine geographical areas in
which to prioritize facilities for inspections, permit reviews,
and enforcement activities. In addition, PCS data was used
in compiling and targeting areas related to environmental
justice activities.

There were 41 PCS data entry requirements within North
Carolina’s FY 1999/2000 Section 106 Grant Workplan. Of
these 41 requirements, 12 related to State enforcement
actions and penalties. These Workplan commitments
included data reporting requirements related to quarterly
noncompliance report (QNCR) enforcement data; State,
judicial and administrative penalty orders including assessed
and collected dollar amounts; administrative orders or
equivalent actions; and, formal enforcement actions in
response to violations of NPDES permit effluent
limitations. However, data related to State enforcement
actions, specifically penalty dollars assessed and collected,
and WET testing, was not maintained in PCS.

We also noted that discharge data which had been entered
in PCS were not always accurate. We reviewed DMR data
for seven major facilities to determine whether permit
violations were reported. We compared the results of our
review to EPA IDEA Detailed Facility Reports as of May
2000 which were generated from data in PCS for the period
January 1999 through September 1999. We found
discrepancies between the actual discharge results as
reported on the DMR versus the reports generated from
PCS for four of the seven facilities (refer to Exhibit 3 for
details). State officials told us when their DMR data was
uploaded into PCS, daily maximum readings were
sometimes uploaded incorrectly into the weekly average
field in PCS. This could have caused PCS to flag a weekly
average violation when, in fact, there was not a violation.
The QNCR review process would have normally prevented
these errors from occurring on the final QNCR; however,



          72                           Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

reports generated from PCS, such as the Detailed Facility
Report we reviewed, could have included incorrect
information and mislead users.

Although PCS data entry had been a continuing problem for
North Carolina for the last several years, it appeared that
the State had recently improved the completeness of State
data entered into PCS. For example, five of eight active
SOCs for major facilities were recorded in PCS. Also,
according to EPA Region 4 officials, North Carolina met its
FY 1999/2000 Section 106 List of Commitment PCS data
entry requirements for DMRs during the first quarter of FY
2000. Further, North Carolina’s FY 2000 First Quarter
QNCR was submitted to EPA in a timely manner.
However, from the period October 1, 1998, through April
1, 2000, PCS reflected no penalty dollars assessed and
collected in North Carolina, even though, according to the
State’s records, North Carolina assessed approximately
$135,000 in penalties for major facilities during this period.
Until approximately four years ago, North Carolina’s
database for enforcement actions was linked to PCS
allowing State information to be uploaded. Since then,
North Carolina had manually entered enforcement action
and penalty information into PCS. According to State
officials, North Carolina did not have adequate resources to
devote staff to this PCS data entry responsibility.

North Carolina maintained an automated tracking system
for all applicable NPDES permit data related to WET limits
and monitoring. However, North Carolina did not enter
results of its WET testing in PCS and, instead, maintained
this information in the State database. According to North
Carolina officials, 550 facilities within the State, including
both major and minor permittees, had toxic monitoring
requirements. These facilities submitted approximately
2,400 self-monitoring reports last year related to these
monitoring requirements.

The lack of NPDES monitoring and enforcement related
information in PCS hindered the ability of EPA to




          73                          Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight

adequately oversee the NPDES program. Without adequate
or accurate PCS data, the Agency could have under-
reported or incorrectly reported data related to GPRA
commitments. In addition, EPA managers could have made
incorrect planning and targeting decisions based on reports
generated from inaccurate PCS data.

Although PCS data entry had been a continuing problem for
North Carolina for the last several years, it appeared that
the State had recently improved the accuracy and
completeness of State data entered into PCS. However
North Carolina’s permit enforcement action data and the
results of monitoring for facilities WET testing requirements
were not maintained in the PCS as required by the Section
106 FY 1999/2000 Grant Workplan. North Carolina’s
maintenance of an adequate level of data quality in PCS was
essential in order for EPA Region 4 to track key
components of the State’s NPDES program. Without
reliable data EPA Region 4 might not have adequately
fulfilled its oversight role on the NPDES program, which
includes monitoring inspections, enforcement actions, and
compliance status of each facility.

At the end of our fieldwork, the Region 4 PCS Manager
informed us that the State had entered WET data into PCS
during July 2000.

OECA recognized problems with the usability of PCS and
associated problems with state input of data into PCS.
OECA had been working on a new application software to
upload state NPDES data into PCS. The OIG’s national
audit of EPA enforcement activities, underway at the end of
our fieldwork, will address this area further in that separate
review.

We suggest that the Regional Administrator ensure that
adequate NPDES enforcement data be entered into the
PCS by North Carolina, or, in the alternative, that Region 4
officials take adequate interim steps to obtain the
enforcement data necessary to fulfill their oversight
responsibilities over North Carolina’s NPDES program.



          74                          Report No. 2000-P-00025
                    North Carolina NPDES Enforcement and EPA Region 4 Oversight

OFFICIALS NEED TO   [NC Town A] sometimes used split sampling to determine
PROTECT THE         whether their effluent was in compliance with the WET
ENVIRONMENT WHEN    limits of their NPDES permit. When this was done, part of
INTERPRETING        the test sample was sent to one laboratory for analysis and
DIFFERENT SPLIT-    another part of the same test sample was sent to a second
SAMPLE RESULTS      laboratory. When State officials received both a “pass” and
                    a “fail” from a split sample, their policy was to recognize
                    the “pass” and ignore the “fail.” As stated by the
                    Supervisor of the State’s Aquatic Toxicology Unit: “...it has
                    been our policy to accept and record the result which lies in
                    favor of the discharging facility. A result of ‘pass’ has been
                    recorded for the . . . [specified] toxicity test.” According to
                    Region 4’s WET Coordinator, she discouraged the State
                    from following this policy, but the issue was not addressed
                    by regulations or any EPA policy, and she was not able to
                    dissuade the State from continuing its policy.

                    We believed if there was reasonable doubt concerning the
                    meaning of data, it should have been interpreted so that any
                    error was made on the side of public health and a better
                    environment. Accordingly, we believed a “pass” and a
                    “fail” from a split sample should have been interpreted as a
                    “fail” and appropriate action should have been taken to
                    improve the water quality. Therefore, we suggest the
                    Regional Administrator incorporate this principle into the
                    next MOA with the State. We further suggest that the
                    Regional Administrator ensure that this principle is
                    reaffirmed to the State before the next MOA is negotiated
                    and that other appropriate means be considered for
                    encouraging the State to change its policy.




                              75                          Report No. 2000-P-00025
     North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 76                       Report No. 2000-P-00025
                                     North Carolina NPDES Enforcement and EPA Region 4 Oversight




                                                                                    EXHIBIT 1
                            SCOPE AND METHODOLOGY


To determine the timeliness and appropriateness of enforcement actions against NPDES
permittees, we reviewed North Carolina DENR Water Quality Section enforcement, permit, and
discharge monitoring report files located in both the Central Office in Raleigh and in the State’s
Asheville, Raleigh, Washington, Wilmington, and Winston-Salem Regional Offices. We also
interviewed officials from the Water Quality Section’s Central Office and from the State’s
Regional Offices in Asheville, Raleigh, Washington, Wilmington, Winston-Salem, and
Mooresville. We primarily reviewed enforcement actions taken against permittees in violation of
their permit limits in Federal Fiscal Years 1998 through 2000 year to date. We also reviewed
permittee compliance with the State’s formal enforcement actions (i.e., SOCs) by reviewing the
enforcement histories of selected facilities.

Our review of the timeliness and appropriateness of the State’s enforcement actions was based on
a sample of 21 NPDES permittees known to be in violation of their permit limits. This sample
included 17 major facilities and four minor facilities. We used several sources of information to
select a sample of major facilities to review. For major facilities, we selected NPDES permittees
that were either: (1) listed on Region 4's Active Exception List for the 4th quarter of FY 1999; (2)
considered in non-compliance for five or more quarters in FYs 1998 and 1999 according to the
PCS SNC Tracker Report; or (3) assessed seven or more civil penalties since the initiation of the
State’s penalty policy in June 1998. For minor facilities, we selected the only four facilities that
had nine or more civil penalty assessments since June 1998 and also had a permitted discharge
limit of 50,000 gallons or more a day.

In order to evaluate compliance monitoring activities we selected a sample of 18 facilities (this
sample did not include any of the permittees selected in the sample discussed in the preceding
paragraph). We reviewed inspection reports conducted for the inspection periods July 1998
through June 2000, and discharge monitoring reports for Fiscal Year 1999 for the 18 facilities in
our sample. We determined whether inspections were conducted on an annual basis for major
facilities and once every five years for minor facilities. We discussed the results of these
inspections with appropriate State regional officials. We reviewed DMRs to determine whether
violations reported on DMRs were detected by the State during its compliance review. Our
compliance monitoring sample included seven major facilities and 11 minor facilities. For major
facilities we selected the largest facility (in terms of design flow) for each of the seven State
regional offices. For minor facilities, we selected the largest 10 minor facilities (in terms of
design flow) excluding water plants. We excluded water plants from our minor sample since they
would have a relatively minimal effect on water quality as compared to other facilities. We



                                                77                          Report No. 2000-P-00025
                                       North Carolina NPDES Enforcement and EPA Region 4 Oversight

selected one additional minor facility to ensure that a facility from all seven regional offices was
included in our sample.

To determine whether North Carolina’s AFO permits contained all required NPDES regulatory
provisions where applicable, we interviewed officials from EPA Region 4's Environmental
Accountability Division and Water Division and officials from North Carolina’s DWQ. We also
reviewed State and Federal regulations pertaining to animal feeding operations, the CWA, and
North Carolina’s general permit for animal feeding operations. We also performed a limited
review of State enforcement actions against animal feeding operation facilities known to have
discharged to waters of the State. The review of enforcement actions was based on a sample of
10 documented discharges to State waters during the period October 1998 through August 31,
1999. We reviewed the State’s enforcement actions for these discharges, reviewed inspection
reports for these facilities, and discussed the results of the inspections and the enforcement actions
taken against these facilities with State inspectors.

In order to evaluate the adequacy of State NPDES data entered into EPA’s PCS we interviewed
officials from EPA Region 4’s Water Division, and North Carolina’s DWQ. We obtained
information on enforcement actions from the State and reviewed PCS to determine whether this
information was entered into PCS. We also compared the results of our review of DMRs for
major facilities to PCS reports to determine whether violations disclosed by our manual review of
DMRs were reflected in PCS.

In order to assess regional oversight of North Carolina’s NPDES program we interviewed EPA
Region 4 Water Division officials and reviewed various oversight related documents including
CWA Section 106 Grant midyear and end of year evaluations, EPA’s MOA with North Carolina,
the EPA/North Carolina Performance Partnership Agreement, QNCRs, and Active Exception
Lists.




                                                  78                          Report No. 2000-P-00025
                                  North Carolina NPDES Enforcement and EPA Region 4 Oversight



                                                                                    Exhibit 2

           SCHEDULE OF TIME REQUIRED TO OBTAIN SOCs




                                                              Date            Months to
         Entity         Noncompliant          Date in         SOC             Obtain
                        Item                  SNC *           Obtained        SOC
1   [NC Town H]         Mercury                   3-94        1-16-98 **            41
2   [NC City K]         BOD & NH3-N               5-93 ***    3-26-97               45 ***
3   [NC City L]         Fecal Coliform            2-94        9-15-96               30
4   [NC City M]         WET & Mercury             6-93        1-94                  6.5
5   [NC Town N]         Mercury                   11-95       2-98                  26



             * Date in SNC or equivalent (date of second exceedance within six months;
                   exceedances being greater than 20% over permit limit, or 40% over permit
                   limit, etc., as appropriate for the different permit items).

             ** Date Town signed SOC.

             *** Files were not readily available before 1996. However, documentation
                    indicates the City violated its BOD limit 610 times and its NH3-N limits
                    428 times between January 1993 and October 1996. The City was in SNC
                    in May 1993.




                                            79                          Report No. 2000-P-00025
     North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 80                       Report No. 2000-P-00025
                              North Carolina NPDES Enforcement and EPA Region 4 Oversight



                                                                                Exhibit 3

DISCREPANCIES BETWEEN MONITORING REPORTS
AND PCS REPORTS




Facility        Violations Reported on the DMR     False Violations Reported on the
                but not on the Facility Report     Facility Report
                                                   (i.e., no violation per the DMR).
                Pollutant       Time Period        Pollutant          Time Period
[NC County O]   Cyanide         Sep. 99            CBOD               Jul-Sep 99
                                Aug. 99
[NC County P]   None                               Fecal coliform     Jan-Mar 99,
                                                                      Apr-Jun 99,
                                                                      Jul-Sep 99
[NC City Q]     None                               Fecal coliform     Jul-Sep 99
[NC City R]     None                               Fecal coliform     Jan-March 99




                                        81                          Report No. 2000-P-00025
     North Carolina NPDES Enforcement and EPA Region 4 Oversight




[This page intentionally left blank.]




                 82                       Report No. 2000-P-00025
                                    North Carolina NPDES Enforcement and EPA Region 4 Oversight




                                                                                       Exhibit 4

                                        ENDNOTES


1.   EPA defined overfiling as taking an enforcement action in addition to one a state had
      already taken for the same violations. Some states and members of Congress referred to
      overfiling as EPA taking any action against a company or other entity, even if the state
     decided not to take an action or if it was for different reasons.

2.   As explained in an Office of Wastewater Management document, states and territories
     identify impaired waterbodies, i.e. those not meeting water quality standards. Lists of
     these waterbodies are provided to the public and EPA every two years. States then
     establish TMDLs for waterbodies on the list. TMDLs specify the reductions needed to
     meet water quality standards and allocate those reductions among the sources in the
     watershed. TMDLs can take up to 15 years to establish.

3.   As noted in the scope and methodology section of this report, our sample was oriented
     toward facilities with long term compliance problems and included facilities where
     available information indicated a SOC had not been taken.

4.   Six of the permittees we reviewed obtained SOCs. We evaluated the timeliness in which
     five of these permittees obtained their SOCs. In the sixth case, the SOC was obtained in
     1995 and the available file documentation did not enable us to determine whether the SOC
     was obtained timely.

5.   The appropriateness of existing EPA guidance for taking “timely and appropriate action”
     when a permittee is in significant noncompliance will be addressed in a separate OIG audit
     report on the EPA’s national NPDES Enforcement program.

6.   This Wastewater Treatment Plant is also discussed in Chapter 2 of this report.

7.   pH stands for “potential of hydrogen” and is a measure of how acidic or alkaline a
     substance is. Acids have pH values over 7.

8.   North Carolina NPDES permits define a composite sample as either “a series of grab
     samples collected at equal intervals over a 24 hour period of discharge...” or “a series of
     grab samples of equal volume collected over a 24 hour period with the time intervals
     between samples determined by a preset number of gallons passing the sampling point...”



                                               83                         Report No. 2000-P-00025
                                     North Carolina NPDES Enforcement and EPA Region 4 Oversight


      or “a single, continuous sample collected over a 24 hour period proportional to the rate of
      flow.”

9.    North Carolina NPDES permits define grab sample as “...individual samples collected over
      a period of time not exceeding 15 minutes; the grab can be taken manually. Grab samples
      must be representative of the discharge or the receiving waters.”

10.   An aliquot of reagent water (or other neutral reference material) known to be free of the
      analyte being tested which is treated as an environmental sample in that is exposed to all
      aspects of the collection and analytical process in both the field and the laboratory.

11.   The term animal unit is defined as “...a unit of measurement for any animal feeding
      operation calculated by adding the following numbers: the number of slaughter and feeder
      cattle multiplied by 1.0, plus the number of mature dairy cattle multiplied by 1.4, plus the
      number of swine weighing over 25 kilograms multiplied by 0.4, plus the number of sheep
      multiplied by 0.1, plus the number of horses multiplied by 0.2.”




                                                84                          Report No. 2000-P-00025
                                      North Carolina NPDES Enforcement and EPA Region 4 Oversight




                                                                                    Appendix 1

       EPA REGION 4 RESPONSE TO THE DRAFT AUDIT REPORT


September 14, 2000

MEMORANDUM

SUBJECT:       North Carolina’s NPDES Enforcement and Region 4 Oversight Draft Audit
               Report

FROM:          Beverly H. Banister, Director
               Water Management Division

TO:            John M. Bishop
               Audit Manager, RTP Regional Audit Office
               Southern Audit Division

       Region 4 has carefully reviewed the draft audit report sent to us on August 14, 2000.
There are three areas that EPA would like to make additional comments/suggestions: storm
water, Combined Animal Feeding Operations (CAFO) and oversight of minor NPDES facilities.
Additionally, EPA would like to inform you of the actions already underway to address these
concerns.

Storm water

         Storm water regulation implementation is an issue that challenges Region 4 and its states.
This additional requirement has put a heavy resource demand on Clean Water Act resources that
are also strained with other emerging issues like Total Daily Maximum Loading (TMDL). EPA
has been aggressively working with all our states to assist them in making improvements to their
storm water programs. EPA would be remiss in not mentioning that North Carolina
demonstrated effective and innovative use of storm water requirements. Specifically, North
Carolina used storm water enforcement to address an important environmental problem involving
illegal ditching and draining activities in coastal wetlands. This initiative required a resource
commitment from both EPA and the State, and has resulted in restoration of wetlands and
deterrence of future violations.




                                                 85                         Report No. 2000-P-00025
                                       North Carolina NPDES Enforcement and EPA Region 4 Oversight


CAFO

       After reading Chapter 6 of the draft report, EPA feels additional factual clarification is
necessary. It appears that some of the basic issues have been lost in the editing process. For
simplicity, Attachment 1 is a redline/strike out that is representative of EPA.

Minor NPDES Facilities

        In Chapters 1 and 2, the recommendation for EPA’s increased oversight of minor facilities
is troublesome. EPA’s ability to oversee the state’s regulation of minor facilities is limited by
available resources as well as Clean Water Act regulatory and policy. EPA must maintain a focus
on majors, but we will address minors as resources permit through a variety of tools, such as
random sampling during file reviews and requests to the state for pertinent information on
violations and enforcement actions.

Action Plan

        EPA and North Carolina senior officials have already met to discuss resolution of many of
the recommendations contained in the draft report. Agreements have been made to
collaboratively construct an action plan to overcome and or clarify issues in North Carolina’s
implementation of the Clean Water Act program as well as EPA’s role in oversight of a delegated
program.

         Thank you for a final opportunity to comment on the report. If any of our comments need
clarification, I will make my staff immediately available to assist in meeting any deadline you may
have. If I or my staff can be of further assistance, please contact me at (404) 562-9326.

Attachment (Auditor’s Note: Region 4's attachment contained editorial corrections. It was
not attached to this final report but is available upon request.)

cc:   Tommy Stevens, NCDENR




                                                  86                          Report No. 2000-P-00025
                      North Carolina NPDES Enforcement and EPA Region 4 Oversight




                                               Appendix 2
 NORTH CAROLINA DENR’S RESPONSE TO THE DRAFT AUDIT
REPORT




                                87                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          88                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          89                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          90                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          91                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          92                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          93                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          94                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          95                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          96                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          97                         Report No. 2000-P-00025
North Carolina NPDES Enforcement and EPA Region 4 Oversight




          98                         Report No. 2000-P-00025
                                     North Carolina NPDES Enforcement and EPA Region 4 Oversight


                                                                                  Appendix 3

                                     Report Distribution List


Office of Inspector General
     Inspector General (2410)
     Deputy Assistant Inspector General for Internal Audits (2421)
        (Audit Control file-3)
     Divisional Inspector General for Audit, Southern Audit Division
       Audit Followup File)
     Divisional Inspectors General for Audit
     Audit Managers, Branch Offices

Headquarters Office
    Assistant Administrator for Enforcement and Compliance Assurance (2201A)
    Assistant Administrator for Water (6101)
    Comptroller (2731)
    Associate Administrator for Regional Operations (1100A)
    Associate Administrator for Congressional and Intergovernmental Relations (1301A)
    Associate Administrator for Communications, Education, and Media Relations (1101A)
    Agency Audit Followup Official (2710)
    Agency Followup Coordinator (2724)

EPA Region 4
    Regional Administrator
    Director, Water Management Division
    Chief, CWA/SD Water Enforcement Branch, WMD
    Director, Environmental Accountability Division
    Audit Followup Coordinator
    Public Affairs Office

State of North Carolina
      Secretary, Department of Environment & Natural Resources
      Director, Division of Water Quality
      State Auditor




                                               99                         Report No. 2000-P-00025
      North Carolina NPDES Enforcement and EPA Region 4 Oversight




(This page intentionally left blank.)




                100                        Report No. 2000-P-00025
